<html>
<title> - SERVICE IN THE FIELD: VETERAN CONTRIBUTIONS TO NATIONAL FOOD SECURITY</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                     SERVICE IN THE FIELD: VETERAN
                CONTRIBUTIONS TO NATIONAL FOOD SECURITY

=======================================================================

                                 HEARING

                               BEFORE THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 18, 2016

                               __________

                           Serial No. 114-51
                           
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                           


          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov
                         
                         
                               ____________
                               
                               
                               
                          U.S. GOVERNMENT PUBLISHING OFFICE
20-273 PDF                     WASHINGTON : 2016                          
___________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0b6c7b644b687e787f636e677b2568646625">[email&#160;protected]</a>  




                        COMMITTEE ON AGRICULTURE

                  K. MICHAEL CONAWAY, Texas, Chairman

RANDY NEUGEBAUER, Texas,             COLLIN C. PETERSON, Minnesota, 
    Vice Chairman                    Ranking Minority Member
BOB GOODLATTE, Virginia              DAVID SCOTT, Georgia
FRANK D. LUCAS, Oklahoma             JIM COSTA, California
STEVE KING, Iowa                     TIMOTHY J. WALZ, Minnesota
MIKE ROGERS, Alabama                 MARCIA L. FUDGE, Ohio
GLENN THOMPSON, Pennsylvania         JAMES P. McGOVERN, Massachusetts
BOB GIBBS, Ohio                      SUZAN K. DelBENE, Washington
AUSTIN SCOTT, Georgia                FILEMON VELA, Texas
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHELLE LUJAN GRISHAM, New Mexico
SCOTT DesJARLAIS, Tennessee          ANN M. KUSTER, New Hampshire
CHRISTOPHER P. GIBSON, New York      RICHARD M. NOLAN, Minnesota
VICKY HARTZLER, Missouri             CHERI BUSTOS, Illinois
DAN BENISHEK, Michigan               SEAN PATRICK MALONEY, New York
JEFF DENHAM, California              ANN KIRKPATRICK, Arizona
DOUG LaMALFA, California             PETE AGUILAR, California
RODNEY DAVIS, Illinois               STACEY E. PLASKETT, Virgin Islands
TED S. YOHO, Florida                 ALMA S. ADAMS, North Carolina
JACKIE WALORSKI, Indiana             GWEN GRAHAM, Florida
RICK W. ALLEN, Georgia               BRAD ASHFORD, Nebraska
MIKE BOST, Illinois
DAVID ROUZER, North Carolina
RALPH LEE ABRAHAM, Louisiana
JOHN R. MOOLENAAR, Michigan
DAN NEWHOUSE, Washington
TRENT KELLY, Mississippi

                                 ______

                    
                    Scott C. Graves, Staff Director

                Robert L. Larew, Minority Staff Director

                                  (ii)
                             
                             
                             C O N T E N T S

                              ----------                              
                                                                   Page
Conaway, Hon. K. Michael, a Representative in Congress from 
  Texas, opening statement.......................................     1
    Prepared statement...........................................     2
Peterson, Hon. Collin C., a Representative in Congress from 
  Minnesota, opening statement...................................     3

                               Witnesses

Fant, COL John S., (Ret.), U.S. Army; Co-Owner/Operator, 
  Summerfield Heritage Farm, Independence, VA....................     4
    Prepared statement...........................................     6
Lemondes, COL John, (Ret.), U.S. Army, Jamesville, NY............     8
    Prepared statement...........................................     8
Chastain, COL Cindy, (Ret.), U.S. Army; Veteran Outreach 
  Coordinator, National AgrAbility Project, West Lafayette, IN...    13
    Prepared statement...........................................    14
Grandon, SSG Eric, (Ret.), U.S. Army; Owner/Operator, Sugar 
  Bottom Farm, Ovapa, WV; on behalf of West Virginia Warriors; 
  Veterans to Agriculture Program................................    18
    Prepared statement...........................................    19

 
                     SERVICE IN THE FIELD: VETERAN
                CONTRIBUTIONS TO NATIONAL FOOD SECURITY

                              ----------                              


                        WEDNESDAY, MAY 18, 2016

                          House of Representatives,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Committee met, pursuant to call, at 10:00 a.m., in Room 
1300 of the Longworth House Office Building, Hon. K. Michael 
Conaway [Chairman of the Committee] presiding.
    Members present: Representatives Conaway, Goodlatte, Lucas, 
Rogers, Gibbs, Austin Scott of Georgia, Crawford, Gibson, 
Benishek, LaMalfa, Davis, Allen, Rouzer, Abraham, Moolenaar, 
Newhouse, Kelly, Peterson, David Scott of Georgia, Walz, 
McGovern, DelBene, Vela, Lujan Grisham, Kuster, Nolan, Bustos, 
Maloney, Kirkpatrick, Aguilar, Plaskett, Adams, Graham, and 
Ashford.
    Staff present: Caleb Crosswhite, John Goldberg, John Weber, 
Mykel Wedig, Stephanie Addison, Faisal Siddiqui, John Konya, 
Anne Simmons, Lisa Shelton, Robert L. Larew, Nicole Scott, and 
Carly Reedholm.

OPENING STATEMENT OF HON. K. MICHAEL CONAWAY, A REPRESENTATIVE 
                     IN CONGRESS FROM TEXAS

    The Chairman. This hearing of the Committee on Agriculture 
entitled, Service in the Field: Veteran Contributions to 
National Food Security, will come to order. I ask Rick Crawford 
to open us with a quick prayer. Rick?
    Mr. Crawford. Thank you, Mr. Chairman.
    Heavenly Father, I thank you for every blessing of life. We 
are thankful that we live in this nation, and Father, it is my 
prayer today that you will dwell in this place, Lord, and I 
thank You that we have the opportunity. I pray that everything 
that is said and done here be pleasing to You, and ask in 
Jesus' name. Amen.
    The Chairman. Well thank you, and I thank our witnesses for 
being here.
    Last November, the Agriculture Committee began examining 
the links between agriculture and our national security. The 
first hearing highlighted global security challenges and 
underscored the connection between food security and political 
stability. As former President George W. Bush said, ``A nation 
that can feed itself is a nation more secure.''
    We followed that hearing with an examination of our 
readiness in dealing with threats to plant and animal health. 
And today, as we approach the Memorial Day holiday, we turn our 
attention to the programs and policies that enable our nation's 
veterans to transition into agricultural occupations.
    In addition to serving on the House Agriculture Committee, 
I am privileged to serve on the House Armed Services Committee 
and the House Permanent Select Committee on Intelligence. It is 
an honor to regularly interact with the men and women who risk 
their lives in service of this great nation. As these men and 
women lay down their weapons and re-enter the private-sector, 
many seek to continue contributing to our nation's food 
security with a career in agriculture.
    Veterans returning to the United States from active duty 
face many challenges. Congresses past and present have sought 
to facilitate this transition through the adoption of Federal 
programs and policies aimed at supporting veterans. These 
include programs such as the Beginning Farmer and Rancher 
Development Program where a minimum of five percent of funds 
available are set aside to meet the needs of veteran farmers 
and ranchers, and the AgrAbility program, which provides 
assistance to farmers and ranchers, including veterans with 
disabilities.
    Sound farm policy plays an integral role in preventing food 
insecurity, and it is one of the reasons the United States is 
consistently ranked as one of the most food-secure nations in 
the world. Our veterans have seen food insecurity, and they 
know the unrest it brings. They understand, perhaps better than 
any of us, how important it is for the United States to 
continue to be able to feed its people. At the same time, this 
Committee is steadfast in its commitment to assisting veterans 
who choose to work in agriculture.
    Today, we will hear directly from soldiers-turned-farmers 
on their experiences going from military service to agriculture 
production. We will learn how the various USDA programs are 
working for participants, and what can be done to improve them. 
I can think of no better group more deserving of our best 
efforts than America's veterans.
    [The prepared statement of Mr. Conaway follows:]

  Prepared Statement of Hon. K. Michael Conaway, a Representative in 
                          Congress from Texas
    Good morning.
    Last November, the Agriculture Committee began examining the links 
between agriculture and our national security. The first hearing 
highlighted global security challenges and underscored the connection 
between food security and political stability. As former President 
George W. Bush said, ``A nation that can feed its people is a nation 
more secure.''
    We followed that hearing with an examination of our readiness in 
dealing with threats to plant and animal health.
    Today, as we approach the Memorial Day holiday, we turn our 
attention to the programs and policies that enable our nation's 
veterans to transition into agricultural occupations.
    In addition to serving on the Agriculture Committee, I am 
privileged to serve on the House Armed Services Committee and the House 
Permanent Select Committee on Intelligence. It is an honor to regularly 
interact with the men and women who risk their lives in service of this 
great nation. As these men and women lay down their weapons and re-
enter the private-sector, many seek to continue contributing to our 
nation's food security with a career in agriculture.
    Veterans returning to the United States from active duty face many 
challenges. Congresses past and present have sought to facilitate this 
transition through the adoption of Federal programs and policies aimed 
at supporting veterans. These include programs such as the Beginning 
Farmer and Rancher Development Program where a minimum of five percent 
of funds available are set aside to meet the needs of veteran farmers 
and ranchers, and the AgrAbility program, which provides assistance to 
farmers and ranchers, including veterans with disabilities.
    Sound farm policy plays an integral role in preventing food 
insecurity, and it is one of the reasons the United States is 
consistently ranked as one of the most food-secure nations in the 
world. Our veterans have seen food insecurity firsthand, and they know 
the unrest it brings. They understand, perhaps better than any of us, 
how important it is for the U.S. to continue to be able to feed its 
people. At the same time, this Committee is steadfast in its commitment 
to assisting veterans who choose to work in agriculture.
    Today, we will hear directly from soldiers-turned-farmers on their 
experiences going from military service to agriculture production. We 
will learn how the various USDA programs are working for participants, 
and what can be done to improve them. I can think of no group more 
deserving of our best efforts than America's veterans.
    I now recognize the Ranking Member for his opening remarks.

    The Chairman. I now recognize the Ranking Member for any 
comments that he would like to make.

OPENING STATEMENT OF HON. COLLIN C. PETERSON, A REPRESENTATIVE 
                   IN CONGRESS FROM MINNESOTA

    Mr. Peterson. Thank you, Mr. Chairman. I am really pleased 
that we are having this hearing today, and welcome to today's 
witnesses. Thank you for your service.
    I have heard from folks all across the country who want to 
start a career in agriculture, but if they didn't grow up on a 
farm or have family in farming or have some other connection to 
farming, it is nearly impossible for them to get started in 
this day and age. We tried to address some of these barriers to 
entry in recent farm bills by including provisions that help 
recruit and support the next generation of farmers, including 
veteran farmers. There are also organizations like the National 
AgrAbility Project, and Farmer Veteran Coalition that are doing 
an excellent job providing support and resources to returning 
service members who are interested in farming.
    I am looking forward to learning more about the work that 
they are doing, and I am also looking forward to hearing more 
on the role active duty service members play in agriculture 
development and outreach while serving overseas, and how these 
efforts might relate to food security issues here at home.
    So again, thank you, Mr. Chairman, for holding this 
hearing, and I look forward to the witnesses who are going to 
enlighten us today, and I yield back.
    The Chairman. I thank the Ranking Member. The chair 
requests that other Members submit their opening statements for 
the record so our witnesses may begin their testimony to ensure 
there is ample time for questions.
    I would like to welcome to our witness table today Colonel 
John Fant, retired, U.S. Army, who is the co-owner of 
Springfield Heritage Farm in Independence, Virginia; Colonel 
John Lemondes, retired, U.S. Army, Jamesville, New York; 
Colonel Cindy Chastain, retired, U.S. Army, Veteran Outreach 
Coordinator for the National AgrAbility Project of West 
Lafayette, Indiana, and our Staff Sergeant Eric Grandon. Which 
brings us to proper ratio of three colonels and one staff 
sergeant. That is about the right mix on the issue. Retired 
U.S. Army, Sugar Bottom Farm, Ovapa, West Virginia, and he is 
here on behalf of the West Virginia Warriors and Veterans to 
Agriculture Program.
    I want to thank all our witnesses for coming. Colonel Fant, 
please begin when you are ready.

  STATEMENT OF COL JOHN S. FANT, (RET.), U.S. ARMY; CO-OWNER/
              OPERATOR, SUMMERFIELD HERITAGE FARM,
                        INDEPENDENCE, VA

    Mr. Fant. Thank you, Chairman Conaway, Ranking Member 
Peterson, and Members of the Committee on Agriculture. It is a 
real privilege and an honor to be able to speak to you today. I 
believe it was General Washington that is attributed to saying 
that ``I have grown gray and blind in the service of my 
nation'' so have I, if you will.
    This is a special day for me, but more importantly, I want 
to thank you, Mr. Chairman, and the Committee Members for 
holding this critically important hearing on food security and 
encouraging veterans to farm. I am a soldier, and I am a 
farmer. My life has been one of service to nation, service to 
community, and service to family, but not always in that order. 
Like previous citizen soldiers, today, many of our veterans 
find themselves securing our nation using shovels and tractors 
rather than rifles and artillery.
    My journey began on a farm. I grew up around cows, corn, 
and collards, but left the mountains of Virginia for college 
and to ``Be All I Can Be'' in the U.S. Army. My career exposed 
me to many cultures and climates. While I did not realize it at 
the time, my service also impressed on me the importance of 
food, the challenges in producing it, and the dangers in 
providing it.
    While stationed in South Korea, I observed the challenges 
of cultivating rice and livestock. While deployed to 
Afghanistan, I saw a beautiful almond grove along the foothills 
of the Hindu Kush, a cash crop inaccessible due to local 
threats. In Iraq, I served along the Euphrates River in Ramadi. 
The Fertile Crescent appeared intact but the land quickly 
became arid, highlighting the criticality of water.
    I began planning for life after the Army about 3 years 
prior to my retirement. One of the earliest events was 
attending a training program for veterans sponsored by the 
Livestock Conservancy and the Farmer Veteran Coalition. Both 
these organizations have been and continue to be instrumental 
in how I operate my farm and the networks in which I 
participate.
    One of the most beneficial training programs in which I 
participated was the Northern Piedmont Beginning Farmer 
Program, a component of the Virginia Beginning Farmer and 
Rancher Coalition, which is largely funded by the 2014 Farm 
Bill through the USDA's Beginning Farmer and Rancher 
Development Program. This course taught participants about what 
it means to be in production agriculture and culminated with 
each student having to produce a business plan but, more 
importantly, making a decision if agriculture was what he or 
she really wanted as a vocation.
    While many young farmers are beginning farmers, not all 
beginning farmers are young. However, I have some distinct 
advantages as a retired veteran: I am physically capable, I 
have an operational and planning background, and I have a 
reliable income with benefits. These advantages help mitigate 
several vulnerabilities which cause small businesses of any 
type to fail.
    My assessment of the farm revealed two major issues: 
livestock health and infrastructure. For animal husbandry 
training I turned to my mentors, my veterinarian and neighbors, 
to help me learn what right looked like. The main barn on our 
farm was built circa 1818 and many of my fences appeared to 
have been built before that. Therefore, I have made use of the 
USDA's Conservation Reserve Program and Virginia's Best 
Management Program cost-share to develop the beginnings of a 
pasture management system through the use of permanent and 
temporary fences and pressurized watering systems. As a result 
of these capital improvements I have seen a reduction in 
winter-feeding requirements and an improvement in soil and 
livestock health. Therefore, based on my experience as a 
beginning farmer I would recommend the following for your 
consideration.
    First, it is a fact that roughly one percent of the nation 
defends the other 99 percent. However, it is also true that 
roughly one percent of the nation feeds 100 percent of the 
nation. Continue to support USDA's, VA's, and DOD's efforts to 
educate and encourage veterans to continue their service to the 
nation by ``joining the other one percent.'' More work needs to 
be done in demonstrating to veterans the opportunities in 
agribusiness.
    Second, General Stan McCrystal, among others, has written 
and spoken about the need for a national service requirement. 
This requirement could be met partially through a concept I 
call Agriculture Corps, or Ag Corps, where citizens enlist to 
work on a farm or farms for 1 year with pay and benefits. This 
will provide a common experience while beginning to address the 
projected future farmer shortfall. If we are serious about a 
diverse food security network we have to begin to mobilize 
towards those efforts.
    Third, continue to provide funding for business planning 
training like the Beginning Farmer and Rancher Development 
Program. We are on the right path in educating our citizens who 
want to farm. This must be sustained.
    And finally, CRP has greatly assisted land-owning farmers 
in resolving infrastructure issues while protecting our natural 
resources. I spend a lot of my time setting the conditions for 
future operations. Programs like CRP have helped me prepare 
today to farm tomorrow.
    When I began transition and told my peers I was going to 
farm, I got some strange looks and a few chuckles. But if you 
really thing about it, there are many similarities between 
soldiering and farming. The most obvious is both are outdoor 
sports. But the planning and communications ability, integrity, 
mission focus, personal discipline, dedication, physical 
fitness, operational flexibility and decision making are all 
skills that I brought back to the farm from the Army. Our 
nation is blessed with natural resources, which we use to feed 
our citizens. The mission of the Farmer Veteran Coalition is to 
mobilize veterans to feed America. Let's work together to 
encourage our veterans to join the other one percent.
    I am prepared to answer any questions you may have. Thank 
you again for this opportunity.
    [The prepared statement of COL Fant follows:]

  Prepared Statement of COL John S. Fant, (Ret.), U.S. Army; Co-Owner/
         Operator, Summerfield Heritage Farm, Independence, VA
Executive Summary
Personal Information
  <bullet> 27+ years active Federal service in the U.S. Army.

  <bullet> Co-Owner/Operator, Summerfield Heritage Farm, LLC.

  <bullet> Participates in USDA's Beginning Farmer and Rancher 
        Development Program and Conservation Reserve Program.

  <bullet> Member, Advisory Committee, Virginia Beginning Farmer and 
        Rancher Coalition.

  <bullet> Member, Farmer Veteran Coalition.

  <bullet> Elected Member, Board of Supervisors, Grayson County, VA.
Recommendations
  1.  Continue to support the USDA's, VA's, and DOD's efforts to 
            educate and encourage veterans on the opportunities in 
            Agribusiness.

  2.  Establish Agriculture Corps, or Ag Corps, where citizens 
            ``enlist'' to work on a farm for 1 year with pay and 
            benefits.

  3.  Continue to provide funding for business planning programs.

  4.  Continue to fund conservation programs.

  5.  Support Land Access Workshops to assist in generational 
            transition.

    Thank you Chairman Conaway, Ranking Member Peterson, and Members of 
the Committee on Agriculture. It is a real privilege and an honor to be 
able to speak to you today. I have always wondered what it would be 
like to testify at a Committee hearing and now I know. This is a 
special day for me but more importantly I want to thank you, Mr 
Chairman, and the Committee Members, for holding this critically 
important hearing on Food security and encouraging veterans to farm.
    I am a Soldier. I am a Farmer. My life has been one of service to 
nation, service to community and service to family and not always in 
that order. Like previous citizen Soldiers, today many of our veterans 
find themselves securing our nation using shovels and tractors rather 
than rifles and artillery. My journey began on the farm. We are a beef 
cattle operation . . . with a sheep hobby. While our farm has been in 
our family for a couple of centuries, my parents are not professional 
farmers but we did try to farm professionally. I grew up around cows, 
corn and collards but left the mountains of Virginia for college and to 
Be All I Can Be in the U.S. Army. My career exposed me to many cultures 
and climates. While I did not realize it at the time, my service also 
impressed on me the importance of food, the challenges in producing it 
and the dangers in providing it.
    While stationed in South Korea, I observed the challenges of 
cultivating rice and livestock. While deployed to Afghanistan, I saw a 
beautiful almond grove along the foothills of the Hindu Kush; a cash 
crop inaccessible due to local threats. In Iraq, I served along the 
Euphrates River in Ramadi. The Fertile Crescent appeared intact but the 
land quickly became arid highlighting the criticality of water.
    I began planning for life after the Army about 3 years out: reading 
books, attending conferences, visiting farms, taking classes, learning 
about conservation programs, writing a business plan. One of the 
earliest events was attending a training program for veterans sponsored 
by The Livestock Conservancy and The Farmer Veteran Coalition. It was 
at this conference I meet Alison Martin, The Livestock Conservancy, and 
Michael O'Gorman, Farmer Veteran Coalition. Both these organizations 
have been and continue to be instrumental in how I operate my farm and 
the networks in which I participate.
    One of the most beneficial training programs in which I 
participated was the Northern Piedmont Beginning Farmer Program, a 
component of the Virginia Beginning Farmer and Rancher Coalition which 
is largely funded by the 2014 Farm Bill through the USDA's Beginning 
Farmer and Rancher Development Program. This course taught participants 
about what it means to be in production agriculture and culminated with 
each student having to produce a business plan but, more importantly, 
make a decision if agriculture was what he or she really wanted as a 
vocation. Currently, there are four organizations in the Virginia, 
which teach this whole farm-planning course (Appalachian Sustainable 
Development, Virginia State University, Northern Piedmont Beginning 
Farmers, Growers Academy).
    At the time of my retirement, I was the only one of my siblings 
able to move back and operate the farm on a long-term basis. While many 
young farmers are beginning farmers not all beginning farmers are 
young. However, I have some distinct advantages as a retired veteran: I 
am physically capable, I have an operational and planning background, 
and I have a reliable income with benefits. These advantages help 
mitigate several vulnerabilities which cause small businesses of any 
type to fail.
    My assessment of the farm revealed two major issues: livestock 
health and infrastructure. For animal husbandry training I turned to my 
mentors (formal and informal), my veterinarian and neighbors to help me 
learn what right looked like. The main barn on our farm was built circa 
1818 and many of my fences appeared to have been built before then. 
Therefore, I have made use of the USDA's Conservation Reserve Program 
and Virginia's Best Management Program to develop the beginnings of a 
pasture management system through the use of permanent and temporary 
fences and pressurized watering systems. As a result of these capital 
improvements I have seen a reduction in winter-feeding requirements and 
an improvement in soil and livestock health.
    Therefore, based on my experience as a beginning farmer I would 
recommend the following for your consideration:

          First, it is a fact that roughly 1% of the nation defends the 
        other 99%. However, it is also true that roughly 1% of the 
        nation feeds 100% of the nation. Continue to support the 
        USDA's, VA's, and DOD's efforts to educate and encourage 
        veterans to continue their service to the nation by ``joining 
        the other 1%.'' Much has been accomplished in this area since I 
        retired, thanks largely to the efforts of the Farmer Veteran 
        Coalition, but more work needs to be done in demonstrating to 
        veterans the opportunities in Agribusiness.
          Second, General Stan McCrystal, among others, has written and 
        spoken about the need for a national service requirement. This 
        requirement could be met partially through a concept I call 
        Agriculture Corps, or Ag Corps, where citizens ``enlist'' to 
        work on a farm or farms for 1 year with pay and benefits. This 
        will provide a common experience and an appreciation for how 
        our food is produced while beginning to address the projected 
        future farmer shortfall. If we are serious about a diverse food 
        security network we have to begin to mobilize towards this 
        effort.
          Third, continue to provide funding for business planning 
        training like the Beginning Farmer and Rancher Development 
        Program. A component of business planning is marketing. The 
        Farmer Veteran Coalition has a program to demonstrate to the 
        general public the opportunities to buy farm products produced 
        by veterans--the Homegrown By Heroes label; celebrated by many 
        Members of this Committee at Farm Credit's ``Salute to Farmer 
        Veterans.'' Therefore, I think we are on the right path in 
        educating our citizens who want to farm; this must be 
        sustained. Additionally, CRP has greatly assisted land-owning 
        farmers in resolving infrastructure issues while protecting our 
        natural resources. I spend a lot of my time setting the 
        conditions for future operations. These programs have helped me 
        prepare today to farm tomorrow.
          Last, one of the major barriers for people wanting to farm is 
        access to land. Encourage state and local organizations, like 
        Farm Bureau, Cooperative Extension, and Grayson Landcare, to 
        continue to hold Land Access Workshops in order to match the 
        willing with the means and to assist in generational 
        transition. We must get beyond the perception that owning land 
        is a requirement to farm.

    When I began to transition and told my peers I was going to farm, I 
got some strange looks and a few chuckles. But if you really think 
about it, there are many similarities between soldiering and farming; 
the most obvious is both are outdoor sports. But the planning and 
communications ability, integrity, mission focus, personal discipline, 
dedication, physical fitness, operational flexibility and decision 
making are all skills I brought back to the farm from the Army. Our 
nation is blessed with natural resources, which we use to feed our 
citizens. The mission of the Farmer Veteran Coalition is ``To mobilize 
veterans to feed America.'' Let's work together to encourage our 
veterans to ``join the other 1%.'' I am prepared to answer any 
questions you may have. Thank you again for this opportunity.

    The Chairman. Thank you, Colonel Fant. Colonel Lemondes?

STATEMENT OF COL JOHN LEMONDES, (RET.), U.S. ARMY, JAMESVILLE, 
                               NY

    Mr. Lemondes. Thank you, Mr. Chairman, Committee Members, 
ladies and gentlemen.
    Like my father before me, I carried a rifle in defense of 
our nation and because of that, I am honored to appear before 
you to provide my testimony on this topic, and thank you 
wholeheartedly for the opportunity, and most importantly, for 
my family, and above all, for veterans past, present, and 
future.
    Above all, I view it as an extension of service to our 
country through a means that impacts everyone. Food itself is 
something few Americans think about, yet require three times a 
day. While food security is a vulnerability we are exposed to 
with virtually no means or infrastructure to protect, I hope to 
be a part of the solution to this dilemma. Furthermore, I view 
certain things as being a part of the fabric of America itself, 
so interwoven with who we are and where we came from, you don't 
even realize it is there. Farming at the literal grassroots 
level is one of the threads of that fabric and in the end, I am 
personally content knowing that I have risked more than most 
with a respect to our population at large, still contribute to 
the security and nourishment of our country, and ultimately, 
simply thankful to still be alive and able to meaningfully 
contribute.
    Agriculture has brought me all over the U.S. and all over 
the world. As the Chairman of the board for the New York State 
Chapter of the Farmer Veteran Coalition, I hope to create 
positive momentum for veterans in agriculture in New York, and 
seek your support in doing so.
    Our farm, very simply, is a little over 400 acres, 
diversified start up operation, lamb, wool, and maple syrup, 
and I am executing that on a five phase plan. With that, I look 
forward to answering your questions, and last and above all, 
thank you for having me here.
    [The prepared statement of COL Lemondes follows:]

Prepared Statement of COL John Lemondes, (Ret.), U.S. Army, Jamesville, 
                                   NY
    I am honored to appear before you to provide my testimony on this 
topic and thank you wholeheartedly for the opportunity on behalf of my 
state, our country, all veterans (past, present and future) and most 
importantly, my family. Above all, I view it as another extension of 
service to our country through a means that impacts everyone. Food 
itself is something few Americans think about, yet require 3x/day while 
food security is a vulnerability we are exposed to with virtually no 
means or infrastructure to protect.
    Background: Please see attached article I wrote for Cornell 
University (Small Farms Quarterly).
    Our Farm: 436 acres located in Onondaga County, NY.
    Qualifications: See attached resume.*
---------------------------------------------------------------------------
    * Editor's note: Colonel Lemondes resume is retained in Committee 
files.
---------------------------------------------------------------------------
    Service in the Field: Veteran Contributions to National Food 
Security.
Current Situation & Challenges
    1. If the USDA were to expand their efforts to collaborate with 
other departments and organizations to better serve veteran farmers, 
they should first appoint veteran farmer liaisons to the pertinent 
organizations similar to what they have done at the national 
headquarters. This may be viewed negatively as Federal Government 
growth, but food security is our number two national priority, preceded 
by physical security and followed by economic security. They are all 
interrelated. Next, there should be national effort to educate the 
public on food security, and food and fiber production and it should 
start in elementary schools. Most Americans have absolutely no idea 
where their food and clothing comes from (simple examples are cotton, 
wool, meat, poultry, etc.) and what it takes to get the end item to 
them.
    2. I have beneficially utilized the GRP and EQIP programs. Neither 
is without challenges, but both are beneficial.
    3. Skills gained as a Soldier that are transferable to farming are 
essentially the same as those transferable to any vocation. Some of the 
more important are: professional discipline, leadership and 
organization skills, and the ability to see something through and not 
quit. Additionally, veterans gain a much deeper understanding of human 
emotion and capability and can lead others to accomplish things they 
never thought possible. Most veterans have had their limits tested, 
whereas most civilians would not even know what that means. However, I 
caution lumping veterans into any particular category as most of the 
experience gained can be transferred to any endeavor or profession. 
This is a major misunderstanding today, in my opinion, due to the fact 
there are relatively few veterans in comparison to the population at 
large, therefore as a cohort, they are stereotyped and misunderstood.
    4. I don't know if the distinction of being a veteran farmer is of 
any help yet. My operation is only 2 years old and we are still 
fighting an uphill battle to simply get off the ground. My greatest 
concern is that it may hurt business because of the subtle contempt 
that is displayed toward our military, constitution and traditional way 
of life by some. The simple fact that so few people bear the Herculean 
burden of protecting the ``American Dream'' and understanding its 
costs, leaves the vast majority to pursue life, liberty and happiness 
without ever meaningfully contributing to its sanctity.
    5. I have utilized no USDA operating loans because I simply do not 
have the time or bandwidth to explore these opportunities. I applied 
for multiple grants in 2014 and got little back for the time invested. 
This was a hard lesson learned.
    6. I think the only way agriculture can obtain and maintain the 
confidence of the American people is to have greater emphasis on food 
production (again starting w/young children, especially in urban 
schools and centers) and the people who do it. Additionally greater 
emphasis on local food production to include Federal infrastructure 
improvements (i.e., mobile USDA slaughter facilities for rural 
communities, perhaps subsidized slaughter facilities in rural areas and 
in general, simply raising the profile of what farmers do. Note that as 
a veteran being highlighted in agriculture, many may experience `push 
back' in subtle ways because they may be new entrants to agricultural 
production in the communities they settle in. This is a challenge that 
each individual veteran has to manage.
    7. My experiences working with my local FSA and NRCS offices have 
been mixed. At the county or what I call the execution level of these 
large Federal programs, it all boils down to the ability of the local 
personnel to make sensible judgement calls on the implementation of 
program guidelines. I have worked with some that are incapable of doing 
this while others are perfectly able to professionally synthesize what 
needs to be done to satisfy legal requirements, yet still provide 
benefit to that local farm. USDA must emplace people that have the 
temperament, skill and judgement to do this effectively and require 
managers at all levels to take actions to either train or remove those 
that can't. This requires leadership.
    8. Impediments to farming are numerous and ever present. At the 
macro economic level, agricultural production is one of the last (if 
not the last) industry in our country to industrialize. This simple 
fact over the last hundred years has had two unmistakable impacts. 
First, the number of family owned and operated farms has decreased and 
will continue to do so; and, secondly, the average farm size has 
continually increased enabling operations to leverage economies of 
scale while simultaneously driving out smaller producers. Depending on 
source, the size of the average farm today is slightly over 400 acres. 
These trends are irreversible which gives me concern over all of the 
current emphasis on small farms. Are we setting people up for success 
or failure?

  a.  Entry barriers to farming are immense, ranging from the 
            difficulty of land capture to equipment financing and 
            depending on which state you live in, tax burdens, minimum 
            wage challenges, energy prices, regulations and labor.

  b.  Additionally, although veterans demonstrate a higher success rate 
            in most post military endeavors when compared to the 
            population at large, they face discriminatory hiring 
            practices which impact those (farmer and or spouse) who 
            need off farm income to finance their start up or simply to 
            mitigate its risk.

  c.  Specific to veterans, simply being able to have the time to 
            search for farm land prior to military transition is 
            daunting. During my transition (I retired in 1 Feb. 2014), 
            there were no known or recognizable sources that could help 
            a veteran find information. I did it solely on my own. I 
            also found that the USDA was promoting many veteran 
            ``programs'' but I was totally unable to find any 
            applicable benefits. By benefits, I don't mean from a 
            dependency perspective, I mean it more so from a how to, 
            who to see, and where to go for answers point of view.

  d.  Additional impediments from a market perspective are the 
            militancy of the anti-farming and agricultural groups 
            sponsoring activities like ``Meatless Mondays,'' and all of 
            the various methods used to portray agriculture as cruelty 
            to animals. This point alone is directly counter to 
            national food security through protein diversity (type, 
            location, processing methods, etc) and should be considered 
            as a national priority. Crop and protein diversity should 
            be given a higher priority with respect to their 
            integration into the National Security and National 
            Military Strategies.

    9. National food security can also be enhanced (in my opinion) by 
leveraging the VA system as a means of surveillance of rural America 
for detection of domestic or foreign bioterrorist activity. I think the 
more means of detection and monitoring we have for food born illness, 
the safer we and our food supply are. Additionally, some sources cite 
as high as nine of the top ten bioterrorist sources as risks that can 
come to us through the targeting of our farms. Since we don't enough 
veterinarians, I think a logical use of Federal training and support 
funding would be to the VA and rural American farmers which, together, 
would be the vanguard in mitigating or at least identifying exposure to 
these risks.
                               Attachment
So, You Want to Be a Farmer *
---------------------------------------------------------------------------
    * http://smallfarms.cornell.edu/2015/10/05/so-you-want-to-be-a-
farmer/.
---------------------------------------------------------------------------
By John Lemondes

    A veteran shares the challenges of beginning a farm.

    Before making the decision to become a ``farmer,'' ``agricultural 
producer,'' or ``grower,'' there are many things that should be 
considered. This is a decision that cannot be taken lightly, because 
like many vocations, farming is more than a job or career; it's a way 
of life. If that way of life isn't cherished, you won't be successful, 
because the lifestyle tradeoffs are too numerous and will result in 
conflict. For me, after a military career in which the U.S. Army was at 
war for nearly 25 of my 27 years in service, I needed a more peaceful 
life.
    My journey began 4 decades ago growing up in Onondaga County. 
During this period, I developed a deep love for all things outdoors. My 
very first job was as a fruit picker; I had just completed fifth grade 
and learned from a very young age about farm labor. In high school, I 
briefly worked on a farm and liked it, further solidifying my love for 
the outdoors. However, I had a dilemma to work through. My father, 
three uncles, and most of the other male members of my family were 
veterans. Their sacrifices and positive impact on our country (a 
pharmacist, doctor, chef, and business owners) weighed heavily on me, 
so I ultimately decided I had a debt to pay to our country.
    For my wife, who grew up as an Army brat, the closest she ever got 
to a farm was the grocery store. When I graduated from The Pennsylvania 
State University (PSU) in 1987 with a BS in Agricultural Science, I 
became a commissioned Army officer. From PSU I went straight into the 
Army, putting my dreams of being a landowner on hold for an 
undetermined period of time. Then, as a senior officer the decision to 
leave the service boiled down to:

  1.  Our children were paying the bill for my career. Upon retiring 
            and moving to NY, our then 4 and 8, and 13 year old had 
            been in three schools in three states.

  2.  In the Army, we continued to put on hold any personal lifestyle 
            dreams and goals,

  3.  I wanted to run for U.S. Congress in my local district (NY 24). 
            The military had given me considerable leadership and 
            business experience that I thought could benefit NY state 
            and our community.
Specific Challenges
    After my wife and I decided to buy a farm, it took 2 years of 
dedicated searching to actually find one. This is the first major 
challenge to anyone considering farming. Simple land access is a major 
impediment. Although some may be lucky and receive land through the 
estate or gifting processes, most do not. We experienced land 
acquisition through the school of hard knocks. Although I can only 
speak of our experiences, I have heard others say the same thing: that 
this is perhaps the single greatest challenge to farming. After 
applying the criteria which met our needs, most properties wouldn't 
work, which further challenged us.
    Moreover, buying a farm is not like buying a home; we've bought and 
sold several homes and it is comparatively easy. Everything you thought 
you knew doesn't apply. This became our most difficult challenge. We 
cycled through four agents before finding one that had rural and 
agricultural land experience. They'll all tell you they do, but it's 
not easy to find those who really know their stuff. However, once you 
do, it is time well spent. In fact, the saving grace to our whole 
experience was our real estate agent. We would have never been able to 
navigate the process without her knowledge. We are farmers thanks to 
her. Bottom line, looking for and purchasing a farm is significantly 
more stressful for first time buyers than ``fee simple'' residential 
real estate.
    Once we found the farm we wanted, we were introduced to the next 
major, yet unknown obstacle; financing. In fact, we almost lost it 
because of the arduous finance process. After several dozen phone calls 
to banks and equivalent lending institutions, we found one that was 
willing to help us realize our dream; only to find in the eleventh hour 
that they were reversing their decision because we had no farming 
experience. This chicken and egg situation is something we've found 
replaying itself time and again especially with attempts to secure cost 
share grant funding.
    Somewhere along the way, we were introduced to Farm Credit East 
(FCE)
(https://www.farmcrediteast.com/), which saved the day for us. They 
were prepared to deal with and accept the exact criteria and situations 
that sent the other traditional banks running. I knew nothing of FCE 
prior to our farm acquisition, but am a huge fan. Without them, we 
would be in a cul-de-sac somewhere. Their business model, product mix 
and most importantly, flexibility, is unique.
After Occupation Surprises
    In our eighteenth month on our farm, we are realizing that there 
are many more unanticipated challenges. One of the greatest, in spite 
of the generally favorable economic conditions in NYS for agriculture, 
is the tax burden. After forming an LLC in our first few months, buying 
our livestock, starting to turn fallow ground back into production, and 
replacing broken, missing, or otherwise unacceptable fencing, we still 
can't get an agricultural tax assessment reduction because we didn't 
meet the income threshold of $10K. So, when you need extra cash the 
most, in the beginning phase of a start up in order to grow the 
business, you are instead taxed until you can generate $10K per year 
for 2 consecutive years.
    The money we've paid in extra tax burden could have been used to 
buy equipment (we have none and have been renting), pay an employee or 
two (our business is run by sweat equity), and develop a website and 
marketing materials. Bottom line, access to capital and tax policy are 
significant barriers to entering agriculture. We, like many others, had 
to make a hard yes/no decision and accept the realization that if we 
wanted to farm, we would have to first acquire land and deal with 
everything else, over time, as we could.
    I can't say enough how important having funding to fuel your start 
up farm operation is. Although there are many grant and funding 
opportunities advertised, I would have been essentially better off by 
not spending the time to apply for them and instead simply using the 
time for more general labor. The documentation burden is so immense 
that we simply can't allocate 4-5 days of labor consolidating every tax 
return and financial statement of our lives up to this point on the 
``whim'' of maybe getting a few thousand in funding. So, if you want to 
farm and are starting from scratch, be prepared for an uphill battle. 
Without external jobs, we could not finance an agricultural business 
startup.
    Additionally, simple business risk is a huge potential impediment 
for new agricultural operations. Recent legislation attempting to 
require farmers to pay overtime to farm workers, house them in homes 
with exorbitant standards (unsure if the home we live in would qualify) 
in addition to significant wage increase requirements have solidified 
our decision to grow more slowly and not hire anyone until we 
absolutely cannot handle the workload anymore. Although this 
legislation was defeated, I am sure it will be back and if passed, will 
result in significantly higher food prices; thus exacerbating entry 
barriers.
    Legislative attempts to regulate farming like manufacturing will 
never work. Livestock, crops and other agricultural endeavors require 
what they need, when they need it, as determined by the weather, 
seasons and market forces, not an 8 hour industrial time clock. 
Therefore, with respect to farming, it is critical to be ``plugged in'' 
so that you know what is going on politically. We accomplished this by 
becoming NY Farm Bureau members.
    Next, I enrolled in a Cornell Farm Risk Mitigation course, which 
was invaluable. As a result, I was able to immediately identify and fix 
several risk factors which we had not recognized as such. Although at 
the time I went to the course, I didn't realize it, in a few short 
months, the knowledge gained would become critical.
    As with any agricultural endeavor, weather itself is a significant 
risk factor, which we experienced first-hand in Dec. 2014 after losing 
a barn to snow load. In the wake of the epic storm, we received just 
under 36" of heavy wet snow in about 24 hours. This paralyzed 
everything, and we were the first of many in our area to lose 
infrastructure. welcome to farming! However, thanks to the Cornell 
course, we had two degree and tertiary emergency action plans that we 
had developed and implemented. This was unpleasant; however, the 
preparation made it tolerable.
Recommendations
    Often overlooked are the fringe benefits of living on a farm. 
Things as simple as fresh air, limited noise, few if any ``neighbor'' 
problems and issues to contend with and the freedom of space. 
Additionally, the simple pleasure of knowing your feeding other people, 
growing your own food to the extent you desire, and having a happy dog 
that has space to run are all aspects that can be forgotten amidst the 
pressure of harvest and maintenance cycles; but shouldn't be! We make 
it a point to remind ourselves how lucky we are to live were we do and 
to be responsible caretakers of land in our local community.
    Moreover, as we look back and think from a lessons learned 
perspective about what we did that really enabled us to get underway 
quickly, it boils down to:

  1.  Get involved in every professional training and educational 
            aspect of your farm's products. For me, that meant 
            attending many Cornell Small Farm (http://
            smallfarms.cornell.edu/) lectures and symposium's, 
            attending the Howard Wyman Sheep Industry Leadership School 
            (http://www.nlfa-sheep.org/leadership.html) (Sponsored by 
            the National Lamb Feeder Association), attending an 
            American Sheep Industry Association professional wool 
            classing school and finding people and opportunities where 
            you could work in your intended field to gain fast, 
            relevant experience in order to decrease ``learning curve'' 
            trial and error. For my family, we spent almost a week on a 
            commercial ranch in Montana where we worked under 
            supervision to learn necessary husbandry skills;

  2.  Establish networking opportunities by joining the pertinent 
            organizations in your area related to your operation (like 
            the Farm Bureau). We did this as a means to meet people, 
            who then helped us reduce our learning curve challenges.

  3.  Be flexible. You'll experience many, many ``gray area'' decision 
            points where you'll have to make critical decisions with 
            out all the information. As a veteran, I am comfortable in 
            that realm because I've spent nearly my entire adult life 
            operating in that space.

  4.  For other veteran families like ours, I think doing all of the 
            above over a period of 3 years prior to retirement or 
            separation would significantly decrease start up time. In 
            our case, we had to wait because we weren't exactly sure 
            where we were going to live; however, the sooner you can 
            start connecting to the people and organizations that 
            you'll be working with for the rest of your lives, the 
            better!
Summary
    Although it takes time and money to start an agricultural 
operation, it is well worth it. From our perspective as a family it has 
been great, despite the challenges and in light of the macroeconomic 
issues facing NYS. Nonetheless, agriculture in NY is a great industry 
and probably has its brightest days ahead thanks to proactive policies 
from the governor. We experienced several major obstacles that would 
have undoubtedly caused many people to quit, but with understanding and 
preparation have made us more resilient. In the end, the last and 
perhaps most important point I want to make is that in all things worth 
pursuing, there will be obstacles which in order to be successful, must 
be dealt with. In order to deal with setbacks, you have to be 
persistent. Persistence in and of itself is probably the most 
discriminating attribute for success in any agricultural endeavor.

          COL (Ret.) John Lemondes served all over the U.S. and world 
        in his military career from 1987 to 2014. He and his wife, 
        Martha and their three children live on their farm in 
        Lafayette, NY (Elly's Acres Farm) named in honor of their 
        oldest child who is severely disabled.

    The Chairman. Thank you, Colonel. Colonel Chastain?

      STATEMENT OF COL CINDY CHASTAIN, (RET.), U.S. ARMY;
VETERAN OUTREACH COORDINATOR, NATIONAL AgrAbility PROJECT, WEST 
                         LAFAYETTE, IN

    Ms. Chastain. Good morning, Chairman Conaway, and Members 
of the Committee, staff, and guests. It is an honor to be 
invited here today to talk about the USDA AgrAbility program. 
One of AgrAbility's goals is to enhance the capacity of 
veterans, especially those with either invisible or visible 
disabilities so they can contribute to America's food security.
    I was raised on an Indiana farm, graduated with an ag 
degree, and at the same time, received my commission. My last 
assignment before retiring was a year-long deployment to 
Afghanistan as part of an agribusiness development team for the 
Indiana National Guard. Working with Afghan farmers and members 
of our team encouraged me and reinforced my belief that I 
needed to move back to the family farm. Retired in 2010, I 
moved back to the family farm, and eventually came to work for 
the AgrAbility program as their Veterans Outreach Coordinator. 
I am also the President of our family farm, Chastain Farms 
Incorporated, a corn and soybean farm in Indiana. It has been 
in my family for eight generations.
    AgrAbility is the only program dedicated specifically to 
aid those with disabilities to thrive in agriculture, and this 
year it is celebrating its 25th year of service to America's 
agricultural producers. The program, administered by USDA's 
National Institute for Food and Agriculture, has grown to 
include a National AgrAbility Project which is located at 
Purdue University, 20 funded state projects, and several 
affiliated unfunded state projects. Over the past 25 years, 
AgrAbility has served hundreds of veterans who almost, without 
exception, didn't want a parade but rather simply wanted the 
opportunity and a little technical support to do what they 
love: work the land, grow things, and feed their communities. 
Many found that agriculture was not only a means of sustaining 
themselves, but also a path to recovering some of what was lost 
or damaged during their military and combat experiences.
    Our mission statement is to enhance the quality of life for 
farmers, ranchers, and other agricultural workers with 
disabilities so that they, their families, and their 
communities continue to succeed in rural America.
    To accomplish our mission, AgrAbility's staff provide 
direct on farm assessments and services to assess the need for 
technologies and other modifications that can keep our clients, 
veterans, active in agriculture. Over the past 3 years, the 
AgrAbility program has made a concerted effort to reach out to 
veterans, especially those with disabilities. We are doing this 
by organizing workshops, promoting new or existing resources to 
veterans, conducting webinars for rehabilitation professionals, 
and just raising awareness of programs out there to help 
veterans.
    Several of our state AgrAbility projects have partnered 
with the farmer veterans to start state chapters of the Farmer 
Veteran Coalition, and also promote the Homegrown by Heroes 
initiative that brands agricultural products produced by 
veterans.
    Measuring the success of our program can be difficult and 
expensive, but several indicators suggest a high return on the 
investments being made by USDA and the AgrAbility Program. A 
study by Colorado State University found that those who 
received on farm visits and follow up assistance demonstrated a 
significant enhancement in their quality of life scores.
    In addition to my involvement with veteran programs within 
AgrAbility, I am also involved with USDA's Beginning Farmer 
Rancher Development Program. In this capacity, I have the 
opportunity to host several workshops and farm tours. Through 
these experiences, I have come to several personal conclusions. 
First, land acquisition and financing opportunities are the 
largest hurdles to the beginning farmer veteran. Many 
transitioning veterans don't have the opportunity like I did to 
return home to the family farm and inherit the land and 
equipment that goes along with that. Second, most veterans who 
attend our training are interested in small acreage farming, 
not large production agriculture; third, farming, whether 
working with animals or growing crops, is therapeutic to those 
suffering from the common disabilities of wartime service, such 
as post traumatic stress or traumatic brain injuries; and 
fourth, many AgrAbility clients feel that they need to farm. It 
is that strong a calling. I have heard farmer veterans say that 
farming saved their lives and often reduced their reliance on 
other things such as drugs and alcohol to cope with their 
issues.
    With the estimated dearth of farmers to take this country 
into the next 20 or 30 years, we need veterans to consider 
careers in agriculture. I also take pride in the observation 
that a significant number of farmer veterans are not only 
giving back to their communities by providing food, they are 
also giving back to their fellow veterans. Many have 
established nonprofit organizations and are training, 
mentoring, hiring, and encouraging other veterans in their 
desire to farm.
    I encourage the Members of this Committee to continue 
supporting the efforts of the USDA AgrAbility Program, and 
consider how its services can be expanded to the 30 states that 
do not currently receive USDA funding. As a veteran and a 
farmer, and now as a provider of AgrAbility services, I am 
keenly aware of the benefits this program had on the lives of 
many farmer veterans, including my own.
    Thank you.
    [The prepared statement of COL Chastain follows:]

 Prepared Statement of COL Cindy Chastain, (Ret.), U.S. Army; Veteran 
 Outreach Coordinator, National AgrAbility Project, West Lafayette, IN
    Chairman Conaway, Members of the Committee, staff and guests, it is 
a pleasure and honor to be invited here today to testify about the 
contributions that the USDA AgrAbility Program has made, and continues 
to make, to enhance the capacity of veterans, especially those with 
either visible or invisible service-related disabilities, to contribute 
to America's food security.
    My name is Cindy Chastain. I was raised on an Indiana farm, 
graduated from Purdue University with an agriculture degree, and at the 
same time, received my commission in the Army. My goals then included 
getting as far away from our Indiana farm as possible, so joining the 
Army helped me accomplish that mission. However, sometime during the 
next 30+ years of my military career, I came to the conclusion that I 
couldn't wait to get back to my rural Indiana community and farm. My 
last assignment before retirement was a year-long tour of duty in 
Afghanistan as part of an Indiana National Guard Agribusiness 
Development Team. Working with Afghan farmers and members of the team 
on agricultural projects further reinforced my desire to return to the 
farm. I retired in 2010, moved back to the family farm and eventually 
went to work as the Veteran Outreach Coordinator for the USDA National 
AgrAbility Project hosted at Purdue University. I am also currently the 
President of Chastain Farms, Inc., a corn and soybean farm that has 
been in my family for eight generations. My husband and I also operate 
our own small hobby farm near the family farm.
    I came to the AgrAbility project less than 2 years ago and prior to 
that, had not even heard of the program. However, one of AgrAbility's 
predecessors, the Breaking New Ground Resource Center within the 
Department of Agricultural and Biological Engineering at Purdue has 
been working since 1979 to provide technical assistance to farmers, 
ranchers, other agricultural workers, and their families who have been 
impacted by disability and still desire to remain engaged in 
agricultural production. This mission was carried out as part of 
Purdue's Cooperative Extension Service and was from its beginning, 
national in scope. Many of the first clientele of this program were 
veterans who had come home to their farms and rural communities with 
service-related disabilities.
    One early client was a disabled World War II Navy veteran who was 
expanding his New York dairy operation to include blueberry production 
and needed better ways to improve his mobility both around the dairy 
farm and blueberry patch. Another client was a Korean War veteran who 
was trying to find easier ways to accommodate the use of his prosthetic 
leg in completing farm chores, especially getting on and off his 
tractor. One early collaborator with the program was Butch Robbins from 
North Carolina who came back from Vietnam with both legs missing above 
the knees and an arm amputation at the shoulder after stepping on a 
land mine. He eventually became a successful custom hay producer, 
baling tens of thousands of bales of hay annually for his neighbors. 
Among the veterans the program has recently served is a former Air 
Force nurse who had served a tour of duty in Iraq, returning with post-
traumatic stress. Through encouragement and consultation, she has 
already earned organic certification for her farm and is continuing to 
diversify her operation.
    Over the past 37 years, the Breaking New Ground Resource Center has 
served hundreds of veterans, who almost without exception, didn't want 
a parade, but rather simply wanted the opportunity--and a little 
technical support--to do what they loved: work the land, grow things 
and feed their community. Many found that agriculture was not only a 
means of sustaining themselves, but also a path to recovering some of 
what was lost or damaged due to their military and combat experiences.
    In the 1990 Farm Bill, the Breaking New Ground Outreach Program was 
used as a model to establish the USDA Technical Assistance Program for 
Farmers with Disabilities. This program, now known as AgrAbility, is 
this year celebrating 25 years of service to America's agricultural 
producers. The program, administered by USDA's National Institute for 
Food and Agriculture, has grown to include a National AgrAbility 
Project located at Purdue University, 20 funded state AgrAbility 
Projects, and several affiliated, unfunded state projects. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    As our mission statement says:

          The vision of AgrAbility is to enhance quality of life for 
        farmers, ranchers, and other agricultural workers with 
        disabilities, so that they, their families, and their 
        communities continue to succeed in rural America. For this 
        target audience, ``success'' may be defined by many parameters, 
        including: gainful employment in production agriculture or a 
        related occupation; access to appropriate assistive technology 
        needed for work and daily living activities; evidence-based 
        information related to the treatment and rehabilitation of 
        disabling conditions; and targeted support for family 
        caregivers of AgrAbility customers.

    The program has worked vigorously for the past 25 years to help 
make rural America and rural employment opportunities more accessible 
and accommodating to persons with disabilities. As with the Breaking 
New Ground Resource Center, this effort has been carried out through 
the Cooperative Extension Service, which has offices covering every 
county in the U.S., and in partnership with a wide range of like-minded 
organizations such as Goodwill Industries, Easter Seals, the Arthritis 
Foundation, federally funded rural centers for independent living, 
state vocational rehabilitation agencies, and the Veteran's 
Administration.
    To accomplish its mission, AgrAbility staff members provide direct, 
on-farm services to assess the need for technologies and other 
modifications that can keep our clients active in agriculture. 
AgrAbility has also collaborated with manufacturers and fabricators of 
assistive technology to develop new devices that enable farmers and 
ranchers to accomplish tasks that had become impossible or difficult 
after experiencing a disability. One fabricator, Life Essentials of 
Brookston, Indiana has now completed over 2,000 modifications to 
tractors, combines, skid loaders, and other agricultural equipment for 
use by farmers and ranchers who have experienced spinal cord injuries, 
amputations, strokes, and other physical disabilities. The National 
AgrAbility Project has also developed an extensive database of 
assistive technology for agricultural workers known as The Toolbox, 
which is available online to a world-wide audience 
(www.agrability.org).
    Over the past 3 years, with generous financial support from the CHS 
Foundation of Minnesota, and in collaboration with the Farmer Veteran 
Coalition and other veteran organizations, the AgrAbility Program has 
made a concerted effort to reach out to veterans, especially those with 
service-related disabilities. Staff members come alongside veterans and 
build meaningful relationships, an approach that is in harmony with the 
spirit and history of the Cooperative Extension Service. They provide 
assistance, without engendering dependency, to assist clients in 
exploring strategies that will enable them to return to farming or 
become successfully engaged in agriculture as beginning farmers. This 
has been accomplished by organizing workshops specifically for 
veterans, promoting existing resources to veterans through the National 
AgrAbility website (www.agrability.org), conducting webinars for 
rehabilitation professionals on working with returning disabled 
veterans who want to farm, and raising the awareness of rural lending 
agencies and rural community leaders on the importance of ensuring that 
veterans have access to the same resources needed by all farmers to be 
successful. Events have included training tracks at our annual National 
AgrAbility Workshops for both farmer veterans and AgrAbility staff to 
help them provide more effective services to veterans. In addition to 
AgrAbility's efforts, workshops have been conducted in many states 
around the country for female veterans engaged in agriculture, new and 
beginning farmer veterans, and those interested in organic and 
sustainable farming practices.
    Measuring the success of this type of program can be difficult and 
expensive, but several indicators suggest a high return on the 
investments being made by USDA in the AgrAbility Program. A review of 
65 AgrAbility clients in Indiana who received collaborative services 
from AgrAbility and the Indiana Department of Vocational Rehabilitation 
beginning in 2006, found that 10 years later, 61 are still engaged in 
agriculture, living on the same farm, and receiving all or part of 
their income from agricultural production. A study by Colorado State 
University has found that AgrAbility clients who received on-farm 
visits and follow-up assistance from AgrAbility staff demonstrate a 
significant enhancement in their quality of life scores using standard 
assessment tools. Success is also communicated through the comments 
made by AgrAbility clientele when surveyed. One veteran from Vermont 
stated:

          I ended up linking up with people of AgrAbility, and that has 
        been really wonderful because it's not just working with 
        veterans. [It's] working with people who have disability, all 
        types of disabilities, and they all had different types of 
        backgrounds. And they are all farming different things . . . 
        And it's amazing to me that that this project has gotten people 
        to continue their livelihood how it was before you know . . . 
        And I am very honored to be able to work in the fields and 
        knowing that there are all these groups and organizations who 
        were working every day to make efforts to see to it that people 
        can farm, that veterans can farm.

    Another veteran farmer from Missouri responded to the question, 
`What AgrAbility means to me' with:

          I would say to any farmer that has not experienced 
        AgrAbility, you need to get up, open your eyes and take a look. 
        AgrAbility has helped every farmer that I have spoken to 
        tremendously and make them proud. So if you haven't seen 
        AgrAbility, it will put a smile on your face, all those 
        negatives that say you can't do that, through AgrAbility and a 
        little will of [your own], you will go a long way.

    Some of the initiatives for veterans that we are currently working 
on within the AgrAbility program include a video production titled, 
``The Next Mission'', which incorporates interviews with farmer 
veterans and emphasizes transition difficulties, the therapeutic 
aspects of farming and the available resources. In addition, several of 
our state AgrAbility projects have partnered with farmer veterans to 
start state chapters of the Farmer Veteran Coalition and also promote 
the ``Homegrown by Heroes'' initiative that brands agricultural 
products as produced by veterans.
    In addition to my involvement with veteran programs within the 
AgrAbility program, I am also involved in Indiana's USDA Beginning 
Farmer Rancher Development program as well as the Farmer Veteran 
Coalition's Beginning Farmer Rancher Development initiative. In this 
capacity, I've had the opportunity to host several workshops and farm 
tours for beginning farmer veterans. These workshops and those offered 
by other AgrAbility state programs are usually filled to capacity. I'm 
always amazed at the numbers of veterans or even those currently still 
in an active military duty status that are planning to farm.
    Through these experiences, I've come to several personal 
conclusions.

  (1)  Land acquisition and financing opportunities are the largest 
            hurdle to the beginning farmer veteran. Many transitioning 
            veterans do not have the opportunity to return back to the 
            family farm and inherit the land and equipment that 
            generally goes along with that.

  (2)  Most veterans that we work with come from rural communities, 
            were familiar with the farm life, and at some point decided 
            that that's the life they wanted.

  (3)  Most veterans who attend our training are interested in small 
            acreage farming, not large production agriculture.

  (4)  Farming, whether working with animals or growing crops in the 
            soil, is therapeutic to those suffering from the common 
            disabilities of wartime service, such as post-traumatic 
            stress and/or traumatic brain injuries.

  (5)  Many AgrAbility clients feel that they NEED to farm; it's that 
            strong a calling. I've heard farmer veterans say that 
            farming saved their lives and often reduced their reliance 
            on drugs and alcohol to cope with their issues. That's not 
            something that is said of many career choices.

    With the estimated dearth of farmers to take this country into the 
next 20 to 30 years, we Need veterans to consider careers in 
agriculture. And, I also take pride in the observation that a 
significant number of farmer veterans are not only giving back to their 
communities by providing food; they are also giving back to their 
fellow veterans. Many have established nonprofit organizations and are 
training, mentoring, hiring, and encouraging other veterans in their 
desire to farm.
    I encourage the Members of this Committee to continue supporting 
the efforts of the USDA AgrAbility Program and consider how its 
services can be expanded to the 30 states that do not currently receive 
USDA funding, including some of the nation's most important 
agricultural states such as Iowa, Minnesota, New York, Florida, Oregon, 
Alabama, and Washington. As a veteran and a farmer, and now as a 
provider of AgrAbility services, I am keenly aware of the benefits this 
program has had on the lives of many farmer veterans, including my own.
    Thank you.

    The Chairman. Thank you, Colonel. Staff Sergeant Grandon, 5 
minutes.

    STATEMENT OF SSG ERIC GRANDON, (RET.), U.S. ARMY; OWNER/
   OPERATOR, SUGAR BOTTOM FARM, OVAPA, WV; ON BEHALF OF WEST 
                 VIRGINIA WARRIORS; VETERANS TO
                      AGRICULTURE PROGRAM

    Mr. Grandon. Good morning, Chairman Conaway, Ranking Member 
Peterson, and Members of the Agriculture Committee. My name is 
Eric Grandon, owner/operator of Sugar Bottom Farm in Ovapa, 
West Virginia. It is an honor and a privilege to be here with 
you today. I am testifying today on behalf of West Virginia 
Warriors and Veterans to Agriculture Program.
    Americans have a longstanding tradition of service in the 
armed forces of the United States. Many veterans suffer from 
physical and emotional afflictions and are often unable to find 
gainful employment upon returning from combat. Exploring 
opportunities to engage our nation's veterans in agriculture is 
beneficial to the health and welfare of veterans, as well as to 
the future of America's agricultural economy.
    The mission of the West Virginia Veterans to Agriculture 
Project is to actively recruit and train military members and 
veterans in agriculture and agriculture related business. We 
will grow a new generation of farmers, agribusiness leaders, 
and develop meaningful careers through the collaboration of 
Federal, state agencies, public and private resources in order 
to help our veterans achieve success in agriculture. We believe 
that empowering our veterans in small agribusiness 
opportunities will also provide more access to food for our 
citizens in areas that have food access issues, like those 
found in food deserts and rural communities. We will accomplish 
this by connecting our veterans to opportunities and nurture 
that connection for success. We believe that our veterans and 
members of the National Guard and Reserves possess the unique 
skills, patience, leadership, and the character needed to 
strengthen rural communities with agribusiness opportunities 
plus create a natural, sustainable, and safe food system for 
all. In addition, we have cases to prove that farming and 
agriculture offers a life with purpose and remarkable physical 
and psychological benefits. We work directly with organizations 
and programs that assist in the current physical and 
psychological needs of our disabled veterans. This program 
allows for access to the full benefits of agriculture therapy.
    Our primary goal is to grow a new generation of farmers, 
but we also do our part to help our veterans, and those 
currently serving members of the military in transition from 
the battlefield to home, using the unique value that 
agriculture holds.
    Five years ago I suffered a horrific flashback that left me 
totally disabled with PTSD. For 2 years I wandered my property 
aimlessly not looking forward to tomorrow. That is when James 
McCormick, Director of West Virginia Warriors and Veterans to 
Agriculture Program found me and recommended I give farming a 
try. For the first time in 2 years, I had a mission. I tilled a 
meadow for 3 weeks and planted a crop of sweet sorghum for our 
state's molasses festival. My crop failed miserably, but I got 
my life back. I am now a third year farmer and have built a 
small commercial vegetable farm that serves four county school 
systems through the USDA's Farm to School program. I can 
honestly say that agriculture has saved my life and now I am 
looking forward to tomorrow and the day after that. This 
program works and it can work in any state. Five years ago I 
could barely sit in a room with my family, and today I sit here 
in front of you.
    What can be done to help our veterans in agriculture? 
First, assign funds to the USDA in the form of a matching grant 
that will be available to states' governments that 
legislatively establishes a Veteran to Agriculture project that 
can be used to staff, operate, and support Veterans to 
Agriculture Program in each state, using the West Virginia 
Veterans to Agriculture project as a model. Continue support of 
the position in the USDA that Lenon Bacon currently holds. This 
has, by far, been a great benefit having a fellow veteran in 
the USDA at the top level to give us a voice to the Secretary. 
Third, utilize the Farmer Veterans Coalition as a model for 
national outreach with the Homegrown by Heroes marketing plan. 
Encourage the voluntary development of nonprofit chapters in 
every state that will assist in marketing and access to small 
startup grants that would work in tandem with each 
legislatively established State Vets Ag Program. Fourth, 
support a veterans agriculture therapy project. This was 
suggested by Senator Shelley Moore Capito last month, shortly 
after her visit to our veterans' apiary project in Hedgesville, 
West Virginia. I feel that this was an eye-opening experience 
for all that clearly shows the value of agriculture for the 
rehabilitation, in particular as it relates to PTSD.
    Thank you.
    [The prepared statement of SSG Grandon follows:]

   Prepared Statement of SSG Eric Grandon, (Ret.), U.S. Army; Owner/
  Operator, Sugar Bottom Farm, Ovapa, WV; on Behalf of West Virginia 
               Warriors; Veterans to Agriculture Program
    Good morning Chairman Conaway, Ranking Member Peterson, and Members 
of the Committee. My name is Eric Grandon, owner/operator of Sugar 
Bottom Farm in Ovapa, West Virginia. It is an honor and a privilege to 
be here with you today. I am testifying today on behalf of West 
Virginia's Warriors and Veterans to Agriculture Program.
    Americans have a longstanding tradition of service in the armed 
forces of the United States. Many veterans suffer from physical and 
emotional afflictions and are often unable to find gainful employment 
upon returning from combat. Exploring opportunities to engage our 
nations veterans in agriculture is beneficial to the health and welfare 
of veterans, as well as to the future of America's agricultural 
economy.
    The mission of the West Virginia Veterans to Agriculture project is 
to actively recruit and train military members and Veterans in 
agriculture and agriculture related business. We will grow a new 
generation of farmers, agribusiness leaders, and develop meaningful 
careers through the collaboration of Federal, state agencies, public 
and private resources in order to help veterans achieve success in 
agriculture.
    We believe that empowering our veterans in small agribusiness 
opportunities will also provide more access to food for our citizens in 
areas that have food access issues like those found in food deserts and 
rural communities. We will accomplish this by connecting our Veterans 
to opportunities and nurture that connection for success. We believe 
that our veterans and members of the National Guard and Reserves 
possess the unique skills, patience, leadership, and the character 
needed to strengthen rural communities with agribusiness opportunities 
plus create a natural, sustainable, and safe food system for all.
    In addition, we have cases to prove that farming and agriculture 
offers a life with purpose and remarkable physical and psychological 
benefits. We work directly with organizations and programs that assist 
in the current physical and psychological needs of our Disabled 
Veterans. This program allows for access to the full benefits of 
agriculture therapy. Our primary goal is to grow a new generation of 
farmers, but we also do our part to help our veterans, and those 
currently serving members of the military in transition from the 
Battlefield to home, using the unique value that agriculture holds.
    We have eight Primary Objectives:

  1.  Actively recruit Veterans, and members of the National Guard and 
            Reserves that have a sincere desire to start an agriculture 
            related business.

  2.  Actively recruit Veterans, National Guard and Reserve members 
            that are currently operating an agribusiness and assist 
            them with growing their business through marketing, 
            mentoring, and cooperative agreements like those found in 
            the Minutemen Farmers' Cooperative and Farmers Veterans 
            Coalition.

  3.  We maintain a list of Veteran farmers and agribusiness owners to 
            offer a Veteran specific brand to utilize for their 
            products and/or agribusiness related items that clearly 
            identifies them as a Veteran farmer or agribusiness owner. 
            Currently, we are partnered with the Farmers Veteran 
            Coalitions' Homegrown by Heroes program for marketing 
            veteran's products, services, and goods.

  4.  Develop Memorandums of Understanding between local, state, and 
            Federal agencies to assist in the standup, operation, and 
            continued growth of the Veterans to Agriculture program.

  5.  Designate property to offer Veteran farmers for agriculture 
            purposes. Offer these properties to Veterans at a yearly 
            affordable rate for the sole purpose of agribusiness 
            development, cooperative opportunity, and Agra-therapy 
            sites for Veterans in agriculture.

  6.  Coordinate and establish certified Agriculture education programs 
            to allow veteran to utilize the GI Bill for programs that 
            will lead to either a certificate of proficiency, diploma, 
            apprenticeship or degree in agriculture.

  7.  We work closely with the West Virginia Veterans Assistance, 
            National Guard, Federal and state agencies to offer 
            potential rehabilitation sites and technical assistance for 
            veterans, families, and members of our armed forces to 
            maximize the use of Agriculture based therapy programs.

  8.  Create a program that is duplicable and share this program with 
            any state, territory, or agency to maximize the 
            availability of this resource to all veteran, military 
            members and families across the nation.

    Five years ago I suffered a horrific flashback that left me totally 
disabled with PTSD. For 2 years I wandered my property aimlessly not 
looking forward to tomorrow. That is when James McCormick, Director of 
West Virginia's Warrior and Veterans to Agriculture found me and 
recommended I give farming a try. For the first time in 2 years I had a 
mission. I tilled a meadow for 3 weeks and planted a crop of Sweet 
Sorghum for our states Molasses festival. My crop failed miserable, but 
I got my life back. I am now a third year farmer and have built a small 
commercial vegetable farm that serves four county school systems 
through the USDA's Farm to School program. I can honestly say that 
agriculture has saved my life and now I'm looking forward to tomorrow 
and the day after that. This program works and it can work in any 
state. Five years ago I could barely set in a room with my family, and 
today I sit here in front of you.

    The Chairman. I thank our witnesses this morning for being 
here, and the testimony. The chair would remind Members that 
they will be recognized for questioning in the order of 
seniority for Members who were here at the start of the 
hearing. After that, Members will be recognized in order of 
arrival, and I appreciate Members' understanding.
    Again, I thank our witnesses for being here. Colonel Fant 
mentioned that one percent defends our country, one percent 
feeds our country. That means the other 99 percent don't know a 
whole lot about either one of those noble endeavors. Could each 
of you visit with us about things that you have seen in your 
overseas assignment that affect food insecurity there, and 
perhaps things that perhaps Americans take for granted in the 
farming operations or production agriculture?
    Colonel Fant, we will start with you.
    Mr. Fant. Thank you, Mr. Chairman. Ultimately, it starts 
with understanding what we have, and part of it takes getting 
away from where we are to be able to appreciate for what we 
have.
    My first assignment was in West Germany and I lived in a 
small town that was an agricultural town, and it was surrounded 
entirely by fields growing crops. When you had a discussion 
about how they developed their town or built a new house, it 
always came back to can we make use of a lot that had already 
been built on, rather than the sprawl taking up additional 
farmland. It is an attitude thing in a lot of ways because of, 
in our case we have a lot of land in this country and so it is 
not readily apparent. But in Germany or other places that I 
have been stationed, you begin to see the challenges associated 
with what happens if you don't take into consideration the land 
on which you are going to develop, and then the fact that it no 
longer is being able to be used to grow what everyone needs, 
which is food.
    When I was stationed in South Korea, the impression I got 
from that is we drove around through the rice paddies and all 
the different little small farms, it was really subsistence 
farming in most cases, but their approach was they had to make 
use of every piece of land that was available in order to 
sustain themselves and their family. I didn't get the 
impression that it was a national effort to grow food, but it 
was a requirement to grow food. And the climate there was such 
that it supported growing rice as their grain, but what they 
didn't grow, because they didn't have the land, was cattle. And 
so they had to look at alternative ways to obtain protein.
    Security, on the other hand, in Iraq and Afghanistan where 
the real challenges there, the farmers wanted to farm but they 
didn't necessarily have access to those fields.
    So what those tours of duty showed me and helped me begin 
to understand was the blessings that we have here, both from a 
land standpoint and from a water standpoint. In Iraq, folks 
lived along the Euphrates and the Tigress Rivers mostly because 
they needed the water, and therefore, that is where the crops 
were. You didn't see a lot of development away from those 
rivers and trying to pump the water from those rivers, although 
there are aqueducts around.
    That is really where it begins is an appreciation for what 
it is we have, and then the better understanding of if it goes 
away, we are going to face some real challenges in feeding 
ourselves.
    The Chairman. Colonel Lemondes?
    Mr. Lemondes. Thank you, Mr. Chairman. The most important 
aspect of our policy is it is a critical diplomatic tool. You 
can do a lot with food, and I really saw this firsthand in my 
service on the Agriculture Committee when I attended the 
Eisenhower School for National Resource Strategy. In that 
spring the curriculum was divided in the fall with common core 
leadership that all the war colleges take, but the spring term, 
what makes the Eisenhower School different is it studies the 
GDP. Each staff group takes one segment of our GDP and you do a 
deep dive on domestic policy issues that are relevant and 
pertain to what our agencies and industry need in that year, 
and then you do the same thing internationally. When I traveled 
to India, Thailand, and Vietnam, among others, those three 
particular countries struck me the hardest with what we have, 
although I already knew that from service in Afghanistan and 
Iraq and all over the Middle East. I implicitly knew the 
benefits that we have here, but when you go to countries where 
real, no kidding poverty exists, unlike anything you could ever 
imagine here, it really sets the stage for understanding how 
critically important food is, food policy, the diplomacy of 
food and water, and I just saw a lot that really made me thank 
what we have, and protection of that is critical.
    The Chairman. My time has expired. I will come back to the 
other two witnesses at the end, so hold your answers.
    Mr. Peterson, 5 minutes.
    Mr. Peterson. Thank you, Mr. Chairman. From all your 
testimony, it seems that there are some great programs out 
there for veterans, both publicly and privately funded.
    I am just wondering, are there holes that need to be filled 
between USDA and other Federal agencies, or anything that we 
might be missing that we could do to improve the situation? If 
each of you would address that.
    Mr. Fant. Yes, sir, where the real opportunity lies is, 
again, if you embrace this idea of mobilizing veterans to feed 
America, then what I recall from my transition from the 
military is that no one ever talked to us about the 
opportunities in agribusiness. And it doesn't have to be about 
production ag. There are a lot of opportunities, as you all 
know, in agriculture to do a lot of things, but it all feeds 
the main purpose, which is development and transportation of 
food.
    The real opportunity that exists, and we are making a lot 
of headway with what USDA stood up with their veterans' liaison 
officer and what the Farmer Veteran Coalition has been able to 
do in educating those veterans. But, that is really the 
opportunity. Before they transition out of the service, we have 
to really spend some time educating them about the 
opportunities, because once they are gone, it is much harder to 
get them back. And that is where we can make a lot of headway 
into this issue.
    Mr. Peterson. Yes, ma'am.
    Ms. Chastain. USDA has just started a program where they 
are working with DOD to get some agricultural training in their 
TAP program, the Transition Assistance Program. It is just 
beginning. I don't think it is an extensive piece of 
information, but it is some to get to what John Fant said. It 
encourages veterans to seek out agricultural workshops and 
other things after they get out. But there is some training 
that is planning to happen in the Transition Assistance 
Program.
    But I would also like to bring out that maybe the USDA is 
also working with the VA, but maybe that could be encouraged a 
little bit more. We know we don't want to talk about all the 
issues of the VA, but I do think that there are some issues 
with disabled veterans getting help in agriculture as a 
possible career. So if a veteran is disabled, I don't even 
think agriculture is on the list of possible career options for 
those individuals. We want to encourage that. I think it is an 
option.
    Mr. Lemondes. If there is a means for the USDA to build on 
the infrastructure that they have had and the momentum that 
they have put behind this so far, that it would yield the 
results that have just been mentioned. And specifically, if the 
agencies that deal with farming and farmers, and I am talking 
about the local agencies at the county level where the 
execution of our farms takes place across the country, if they 
were able to be better armed with information about veterans 
and veterans in their district, in their counties, and know 
what information, programs, education, et cetera is available 
or potentially available, they might be able to be a filter to 
screen and link resources with farms.
    Whereas I found the same thing as Colonel Fant. My family 
had zero knowledge to get from the Army during this transition 
process, and we started in 2011 looking. It took from 2011 to 
2013 to actually buy a farm and the capture of the farm was 
the, as Cindy said, the land capture aspect was the most 
difficult piece for many, many reasons, especially financing at 
the top of the list. But nonetheless, if the people at NRCS, 
FSA, et cetera, et cetera, had more information, keep in mind, 
this is from a layman's perspective of my interactions with 
them thus far. This may be provided already. I don't know for 
sure that it is, because oftentimes when I ask questions, I get 
the I will get back to you, or I don't know. If that 
information could be pushed, accentuated, perhaps organized in 
a fashion that they knew that, okay, I have 12 farms that are 
veteran-owned in my district. Let me specifically look at when 
I say resources, I don't mean just money. I mean anything 
across the spectrum of ag commodities. But there may be things 
that they can do to provide that link.
    Just this morning, for example, I received an e-mail from 
my FSA office reminding me to file my crop report, which I 
haven't done yet. And that was great. That is an example of 
this gal knows me, knows I am probably going to be late if she 
doesn't remind me, and again, I can only speak to my state and 
my county and my office. I don't know what the rest of the 
country is like, but that is an example of something being done 
really well.
    The Chairman. Thank you, Colonel.
    Mr. Lucas, for 5 minutes.
    Mr. Lucas. Thank you, Mr. Chairman, and I believe, for a 
moment, I would like to step back to the perspective that 
Chairman Conaway was pursuing for just a moment ago, and 
whoever on the panel would care to answer this.
    But, one of you mentioned having been stationed, for 
instance, in South Korea. Sometimes this Committee, in dealing 
with food-related issues and supporting production agriculture 
and processing, sometimes our biggest challenge here is much 
what the men and women of the armed services face, and that is 
the assumption in the general population of this country that 
the food will always be there, that security will always be 
there, that there will never be a threat on our shore. But the 
mention made a moment ago about South Korea, isn't that an 
example of that instability, not in South Korea but across the 
border in North Korea where they face famines more years than 
not? And it is not just North Korea. The price of corn 
tortillas in certain parts of the Americas determines stability 
of the government. Famines occur in Africa and certain parts of 
Asia. Would anyone care to expand on how important that food 
security issue is in preserving--yes, sir? Colonel.
    Mr. Lemondes. Sir, I would thank you.
    It is absolutely critical, and to your point of the general 
population not understanding where their food comes from, how 
it is made, how many touch points are on a head of lettuce 
before it ends up in their sandwich. Same thing with any aspect 
of agriculture. People do take it for granted, and they take it 
for granted because of our level of overall security, in my 
opinion. We are one of the richest countries in the world. Our 
food is prevalent because of the way we are organized, and 
perhaps because of geography we have the ability to have more 
food, and we have cheap food. We have the cheapest food in the 
world.
    And so with all of that, we have set the stage ourselves 
for the average person as over time as our economy has gone 
from agrarian to industrial, we have set the stage for the 
average person to be completely removed from the source of 
their food, and I see that. We all see that every day.
    Mr. Lucas. But there are places around the world where if 
there is not enough to eat, the government will fall, society 
will collapse. We have seen that in recent years.
    Let me turn to a slightly different perspective. Colonel 
Fant, you referred to the Conservation Reserve Program, and how 
it assists landowners in resolving infrastructure issues. Could 
you, or anyone on the panel, care to expand on the conservation 
programs as they are now available to veterans and the 
utilization rate and the challenges in particular there, if 
there are challenges?
    Mr. Fant. Yes, sir, the Conservation Reserve Program, or 
CRP, it was available to any land owning farmer. As a veteran, 
though, there are other programs out there that are specific 
for socially disadvantaged populations. I haven't taken 
advantage of those. The one that I have been using the most is 
the CRP program and the Commonwealth of Virginia's Best 
Management Practices Cost-Share. But what it allows you to do 
is really to address some of the major concerns on the farm of 
being able, I almost in some says now look at my farm as a 
cattle prison, because I am tired of them being out on a rope. 
But the real purpose of those programs is to protect our soil 
and our water. What I have noticed through, and we have 
probably built over the last 3 years, through these programs, 
we are close to 50 miles of fence that we have built. And we 
have restricted livestock access to the water, and the other 
thing that we have done is we actually test our surface water; 
if you don't measure it, you can't do anything about it. And so 
we try to assess our quality of our surface water and whether 
or not we are making a difference. And I can tell you that we 
are making a difference through the use of restriction of the 
livestock to the creeks.
    And it is not so much about what I am doing on my farm, but 
it is the effect that I am having on my farm on my neighbors 
and the rivers and the--ultimately, the ocean. And so these 
programs have allowed us to improve the use of my farm. It has 
given me greater access to areas of my farm that I didn't have, 
and it has enabled me to help me improve the quality of the 
natural resources that I have on my farm.
    So I hope that----
    Mr. Lucas. I define that as a success, Colonel, and the old 
adage about good fences make for good neighbors is still as 
true today as it was centuries ago.
    I yield back, Mr. Chairman.
    The Chairman. The gentleman yields back.
    Mr. Scott, from Georgia, for 5 minutes.
    Mr. David Scott of Georgia. Thank you, Mr. Chairman. First 
of all, I want to thank you, Mr. Chairman, for this 
extraordinary hearing. It is very, very meaningful because our 
veterans, our soldiers, and our farmers, that combination 
provided the foundation of our country. The Revolutionary War 
itself that got our country started was started by soldiers who 
were farmers. Our country was sustained and kept together 
through the Civil War by farmers and by soldiers. So I commend 
you veterans and soldiers, for you all are truly the blood, the 
sweat, and the tears of this great nation. I mean, you have so 
much in common, farmers and veterans. You get up early in the 
morning. You are incredibly disciplined. You have strong family 
values, and you provide the backbone for this great nation.
    And I want to know from each of you if you had to name two 
things that we could do right now to help our veterans and our 
soldier farmers, what would they be? We will start with you, 
Colonel. I know some of you have mentioned the land prices, and 
I certainly want to get into that, but specifically two things, 
each of you.
    Mr. Fant. Yes, sir. I was afraid you were going to ask me 
to go first. The one that pops into my head is this idea that 
we need to encourage and educate folks and try to defeat this 
idea that you have to own land to farm. One of the challenges 
that you always hear when you go to these conferences, 
regardless if it is focused on veterans or not, of beginning 
farmers, the challenge is access to land.
    But a lot of times, and especially down where I live, when 
you think about farming, they immediately think about beef 
cattle. When they think about beef cattle, they think about the 
large land requirement----
    Mr. David Scott of Georgia. Colonel, before you go any 
further, it might be helpful to us if you have an idea, because 
a lot of people may not know what the average price per acre of 
land would be.
    Mr. Fant. Yes, sir, it is different throughout the nation. 
Before the crash in 2008, acre land where I am from in 
southwestern Virginia, which is very rural and mountainous, was 
going for about $8,000 an acre. Now after that, it is down 
between $4,000 and $5,000. But as you go further out West where 
the land might be more suitable for a different type of 
agriculture, the price could be much higher than that, and 
other places it could be even lower. So it really is 
geographically driven, but where we are right now, if you are 
buying land, farmland, pastureland, it is probably somewhere 
between the $4,000 and $5,000 an acre, which is still a lot of 
money for a beginning farmer.
    Mr. David Scott of Georgia. Okay. Colonel Lemondes, my time 
is up, but do you have anything to add to that, other than land 
prices?
    Mr. Lemondes. Sir, I would add greater role of the 
Department of Defense in education of veterans, and in simply 
understanding what agriculture is throughout the country. And 
that would the first one and the most important because through 
that, then as Colonel Chastain explained, the TAP program that 
we all went through could actually have a section on farming, 
and people could access that information long before their 
retirement. I think that is critical.
    As I said, our personal quest to farm started about 5 years 
before retirement, and it was a bloody uphill fight all the way 
to the end.
    Mr. David Scott of Georgia. Colonel Chastain?
    Ms. Chastain. One of the things I would like to see is the 
encouragement of incubator farms. An incubator farm is a farm 
where a veteran, and these incubated farms would be for 
veterans, is a current farm that would allow a veteran to come 
in for a very low price, rent some acreage, use the equipment 
on that farm, get experience, have the mentors there to teach 
them what they needed to do before they went out on their own 
and possibly failed because they didn't have the background 
that they needed. Incubator farms for veterans, if we could 
encourage that somehow financially for current veterans to do 
that program, it would be substantial benefit to the veterans.
    Mr. David Scott of Georgia. Mr. Grandon?
    Mr. Grandon. Yes, sir, to come back to that, our program 
offers, we have two farms right now that are incubator farms 
that were leasing out an acre of ground for $20 a year for 
veterans to come in and train to be a farmer and to see if they 
wanted to farm as a living. One of the greatest things is 
education. We just have to get the word out. Two years ago, the 
command team from the transition team from the Pentagon was at 
my house, just to see if somebody could make it without any 
experience whatsoever. Three years ago when I started my farm, 
I knew absolutely nothing about farming. I had no background 
whatsoever, and like I say, today, we have a small, successful 
vegetable farm. It can be done, but the education is the key. 
We have to get that out at the transition point, well before 
the soldiers get out.
    Mr. David Scott of Georgia. Thank you.
    The Chairman. The gentleman's time has expired.
    Mr. Gibbs, for 5 minutes.
    Mr. Gibbs. Thank you, Mr. Chairman, and thank you all for 
your service to our country.
    Just a couple of thoughts, and then I have a question here. 
But in your testimony you talked about price of land and 
challenges and work you are doing with the disabled. Colonel, 
of course, you had a farm to come back to in Indiana.
    I have kind of a unique perspective on this, and not from 
the service aspect, but I am a city kid who became a farmer, 
and I have to tell you, it is a tough business, and you know 
that. The military people, our veterans coming back, they have 
some great discipline, as you said, that can fit in, but we 
need to make sure that we are clear-eyed about this and not 
down the wrong track. I see in my area in agriculture beginning 
farmers, a lot of them don't own a whole lot of land. They 
rent. So there are ways to do that, and there are also ways to 
partner with landlords that now the baby boomers that are 
getting out of it. So there are those opportunities.
    But I also would comment that there are two things to think 
about in the programs, and I support these programs to help the 
veterans do this. This country owes quite a debt to our 
veterans. We have to do all we can do, but I think there are 
two things. I look at the colonels here. You are more senior in 
age and you have more resources like the one said you hit your 
retirement and so it is a little easier, but the veterans 
coming out that served a couple tours of duty and are coming 
out and they are in their late 20s, early 30s, they are 
obviously in a different situation. We need to make sure those 
programs are tailored to address them, because there are two 
things going on here, and I think you agree with that. Because 
as we know, the capital investment to get into farming we talk 
about the land, we talk about the machinery.
    And then the other thing I would mention before I ask a 
question is there are really two types of farming operations in 
general. You have your commodity production, you produce corn, 
beans, hogs, beef, or you are going to be larger. I know in 
testimony you talked about the average farm of 400 acres. That 
is true, but if you are in commodity production, efficiency to 
be able to afford the equipment and everything, we see the 
farmers getting several thousand acres if they are grain.
    But then there is the niche farming, the people that found 
a niche, when the veterans groups are working with the FSA and 
everything and the programs, you need to keep that all in 
perspective.
    Colonel Lemondes, I don't know how you say your name. Yes, 
Lemondes. I read through this. There are a couple things that 
kind of roared out at me, and the one statement you made, I 
hope it is not true. I am sure it is true to some extent, but I 
hope we are over that era we had back in the 1960s. But you 
talked about being a veteran farmer and the concern about in 
your community it is an uphill battle and being a vet might not 
be a positive thing going, you said this in your testimony. And 
I hope that is not the case. I hope that our people in rural 
America have the utmost respect for our veterans on that part 
of your testimony.
    But I guess the impediments and you talk about the 
biosecurity. That is where veterans understand. I was a hog 
farmer and I understand the biosecurity needs and the risks we 
have out there, and I think that the American consumers, I know 
that they want their food to be homegrown as much as possible, 
and they take it for granted, we know that, but they want it to 
be homegrown.
    The question to you: is how do you feel? Do you feel 
comfortable about these programs that we are being honest to 
the veterans that want to think about getting into agriculture 
production, and so they know the realities that it is not a 
guaranteed success? Anybody want to respond? I have only 45 
seconds.
    Mr. Fant. Yes, sir. I think that is why it is important, 
and we have all hit on the idea of education. Whoever wants to 
get into agriculture, we have to give them a realistic 
experience of what it is like, but we also have to set the 
conditions for them to be successful and I did make mention of: 
maybe pay them a small stipend and a little bit of benefits, 
because that is what young folks, the folks that are getting 
out of the military, not retirees, are most worried about is 
how they are going to support themselves and their family. If 
we can do that and link them to a farm to do it, we can make 
some significant progress.
    Mr. Gibbs. Yes, go ahead, ma'am.
    Ms. Chastain. A lot of beginning farmers continue to work 
outside of the farm initially, especially the younger ones 
work, either their spouse or they work outside of the farm 
while they are beginning to mitigate some of the risks. And 
then when they get profitable enough, they can quit those 
outside jobs.
    Mr. Gibbs. Thank you again. Thank you. I yield back.
    The Chairman. The gentleman's time has expired.
    Mr. McGovern, for 5 minutes.
    Mr. McGovern. Well thank you very much, and I want to thank 
all of you for being here today. This has been very 
informative. I know that the focus of today's hearing has more 
to do with veterans' contributions to farming and agriculture, 
and let me be clear: I think they are tremendous, and I support 
USDA's efforts to encourage veterans to get into farming and to 
support them throughout the process. I think you have all 
articulated the many, many benefits to veterans who actually go 
into farming. We certainly want to do everything we can to make 
it easier for that to happen.
    But I just want to take a moment to talk about veteran 
hunger, which is something that doesn't get as much attention. 
You have all talked about the importance of what happens on a 
farm. You grow food, people need food, and you can deal with 
issues of food insecurity that so many in this country face. 
But right now, over 1.5 million veterans receive SNAP benefits 
annually, and post-9/11 in particular, veterans experience food 
insecurity at a rate almost double the average rate for non-
veterans. There is a discussion going on here about making it 
more difficult for what we call able-bodied adults without 
dependents to be able to continue on SNAP benefits if their 
time limit has run out, and taking away states' abilities to 
grant waivers. And one of the things people here don't 
appreciate is that amongst that population of able-bodied 
adults without dependents, a lot of them are veterans. Tens of 
thousands of them are veterans, 60,000, at the last count, 
might lose their benefits if Congress goes down this road. Some 
of there people are dealing with issues of post traumatic 
stress. Some of them are trying to get into a job training 
program and can't find one, and some of them are trying to find 
a job or readjust. Life is complicated, especially for 
veterans. It can be very, very difficult to kind of 
reintegrate.
    We know that food insecurity also results in a lack of 
access to healthy foods and we see an increase in diabetes and 
heart disease and other things. Some people have been talking 
about ways to incentivize and better connect veterans with 
farmers' markets, to incentivize markets to be held at VA 
clinics, double SNAP dollars at VA clinics so veterans can have 
more purchasing power.
    I would ask your opinion on what some have suggested that 
include a basic screening for hunger at VA facilities. Would it 
be beneficial to connect veterans with programs to help reduce 
food insecurity? I would like to know your kind of experience 
in dealing with veterans and food insecurity, and do you have 
any suggestions on ways we might consider better connecting 
veterans with food assistance? Any of you?
    Mr. Grandon. One thing that we have done as a program, sir, 
is we have identified some of those individuals and we have 
taught them to grow their own food. One thing you can do is, 
again, we go out and we actively recruit people. The idea you 
had if there were farmers' markets at the VA hospitals or the 
VA clinics is an excellent idea. We also have a farmers' market 
in one of the National Guard armories that we do every week, 
and that would be an excellent time to do the two times the 
SNAP dollars and the program like that. But we have taught 
several people to grow their own food. Even in an area as small 
as this table, you can grow food.
    Mr. McGovern. Yes, and I think that is a great idea. The 
question is how do you expand that so that we reach the 
population that it continues to grow?
    I just think the notion that we have people in this country 
who have served our country, put their lives on the line who 
have difficulty in accessing food is something that is 
unacceptable. And to the extent that veteran farmers can be 
better connected to VA facilities or the places where veterans 
are to be able to find ways to increase purchasing power to 
veterans when it comes to their SNAP dollars, but certainly to 
not cut them off of benefits that are essential to making sure 
they get access to food.
    This is a big issue, and I hope that if any of you guys 
have any suggestions along the way, I hope that you share them 
with this Committee because it is an issue that doesn't get 
talked about nearly enough.
    Mr. Grandon. Yes, sir, I agree, and right off the top of my 
head, I don't have any experience with that issue, but I can 
understand the problem. So I would love to work with your staff 
to help work that problem.
    Mr. McGovern. I look forward to it. Thank you. I yield back 
my time.
    The Chairman. The gentleman's time has expired.
    Austin Scott, 5 minutes.
    Mr. Austin Scott of Georgia. Thank you, Mr. Chairman.
    Colonel Chastain, I understand that most of the veterans 
you work with come from rural communities, maybe were on the 
farm, whether from a family that farmed or farmed on the farm 
during summer in high school and before they went into the 
military. What percentage of the people that you worked with 
are totally new to the field?
    Ms. Chastain. I don't have a percentage number to give you, 
but if I was guessing, I would say around 50 percent are people 
that have absolutely no experience farming. The other side is 
those that grew up around it, maybe worked their summers doing 
some farming things, or that came from a family farm. But I 
would say about 50 percent have a desire to farm but have had 
absolutely no experience. And maybe their first experience was 
a backyard garden, and it grew from there. But yes, I am just 
guessing at that amount, but I would say probably about 50 
percent.
    Mr. Austin Scott of Georgia. Really? Well thank you. That 
is significantly higher than I would have thought it was.
    Ms. Chastain. I am talking about veterans, too. That is 
what I have observed.
    Mr. Austin Scott of Georgia. Yes, ma'am. What is the 
average age of the veteran that you work with? Do you know 
that, and years of service, maybe?
    Ms. Chastain. I have a few Vietnam veterans, some older 
that come to some of our programs, but we have younger ones 
also. We have from 19 to probably in the mid to late 60s. So 
the majority are younger, but there are some older veterans 
that maybe inherited a piece of land or purchased a piece of 
land after they retired from another job and want to start 
farming now. There is quite a range.
    Mr. Austin Scott of Georgia. It seems it would be 
significantly easier if you actually had the piece of land in 
the family, and you knew that you had access to it and were 
going to have access to it for a couple of years. That is 
obviously one of the challenges for anybody getting started in 
farming is we can invest the money in this piece of land, even 
if we rent it, but if we don't know that we are going to have 
it next year, it becomes a much, much different equation with 
regard to whether or not you are able to turn that profit. You 
can turn the dirt, but turning the dirt and turning a profit is 
totally different in farming.
    I want to ask, and you answered the majority of my 
questions. Most of them have been asked already, Mr. Chairman, 
but I will tell you that I don't believe that we as a country 
are placing enough emphasis on the security of our food supply 
and our agricultural industry as a whole that surrounds that 
food supply. If we grow the crop and can't get it to market, we 
are not doing anybody any good, including the farmer. But I am 
interested in any comments any of you have about the security 
of our food supply in the agricultural industry. Colonel 
Lemondes? Did I get it right?
    Mr. Lemondes. Yes, thank you. Very few people realize the 
vulnerability that we face, especially in rural America, with 
respect to bioterrorism, and the statistic is nine of the top 
ten bioterrorist agents would be expected to come to us through 
our farms and our food supply. And that is a daunting task. I 
mean, these are things like brucellosis, anthrax, tularemia, et 
cetera. If I am not mistaken, the only one that wouldn't is 
smallpox.
    So when you look at that, and from my perspective, the 
infrastructure to protect that, as I said in my testimony, one 
of the best ways to shore that up would be to use the VA system 
as a vanguard for disease surveillance. And oftentimes, doctors 
don't even know to look at zoonotic diseases among patients. 
For example, when we take our kids to a hospital or to a doctor 
in Syracuse, we tell them we have a farm because they may be 
subjected to different things. Q fever is another one on that 
list. There needs to be a lot more Federal emphasis primarily, 
of course, state emphasis, but I think Federal because this our 
food supply as a nation, and the way we are currently organized 
to distribute our food supply, our supply chains are national 
and that, in and of itself, poses a risk. We only have 3 to 5 
days of food in our national food chain on any given day, 
longer in the winter, shorter in the summer on that 3 to 5 
days. And that is not a lot if there is a major disruption.
    Mr. Austin Scott of Georgia. I appreciate your point, 
especially the 3 to 5 days. That is something that most 
Americans don't recognize.
    Mr. Chairman, I yield back the remaining 19 seconds that I 
am----
    The Chairman. The gentleman's time has expired.
    Ms. Graham, for 5 minutes.
    Ms. Graham. Thank you, Mr. Chairman, and thank you so much 
to the witnesses, and thank you, each of you, for your service.
    I have the honor, as does Chairman Conaway, to serve on 
both Armed Services and Agriculture. I found the opportunity to 
serve on both of those an opportunity to develop good 
legislation from talking with veterans across my district where 
we can have the agencies coordinate together to help our 
veterans enter the agriculture field. Congressman Yoho is not 
here, my colleague from Florida. I represent the north part of 
Florida which is the most rural in the entire state, and has a 
lot of agriculture, and as I have traveled across the district, 
and had an opportunity to talk to many veterans who have faced 
significant challenges in terms of just wanting to get into 
farming. And they want to be able to get into farming.
    I remember a town hall essentially that we were having and 
a veteran shared that if he could have one piece of equipment, 
one piece of equipment, it would be a Bobcat, but the Bobcat 
costs more than he could afford, even with some of the 
opportunities that are provided to get assistance. And I asked 
him, I said well in your service, did you ever use a Bobcat? 
And he said yes, ma'am, even though I always want people to 
call me Gwen, but I can't manage to do that. He said yes, 
ma'am. I used a Bobcat to clear the runway in Iraq. And I 
thought well, if that is the case, I wonder if there is 
equipment that is sitting in some warehouse somewhere that 
could be of use to our veterans and their dreams of farming. 
And I am sorry, I am making a much longer statement than I 
normally do, Mr. Chairman, but anyway, I wanted to give you all 
some background to the legislation that Congressman Yoho and I 
filed, and that was included in the National Defense 
Authorization Act, at least the first steps.
    Based on your experience, I would love to hear from you all 
if you think a program such as that called the Ag Share 
Program, would have been helpful as you entered the agriculture 
field, specifically, Sergeant Grandon. And I was really 
touched, as I know we all were, by your testimony. So would 
this opportunity have been something that would have been 
helpful to you?
    Thank you. Sorry for such a long statement.
    Mr. Grandon. Yes, ma'am, it would. I can't call you 
anything but ma'am, actually in West Virginia, we have a 
program like that now through our Veterans to Agriculture 
Program. We have a partnership with the West Virginia 
Department of Agriculture to use their equipment for veteran 
farmers. It came to the point where I had already purchased the 
equipment. I lost $47,000 on my farm last year, but I am a 
third year farmer and I am still building infrastructure.
    But for starting out, I would have much rather had an 
opportunity to have equipment available and like I say, now we 
do have that in place. So it is an excellent idea.
    Ms. Graham. Do you know if the USDA is partnering with the 
Department of Defense on that?
    Mr. Grandon. I am not sure with that.
    Ms. Graham. Okay. Well, we will follow up, because again, 
it is often getting pieces together that are already present 
and having them work more efficiently on behalf on the veteran 
farmer.
    Mr. Grandon. Right.
    Ms. Graham. So we will follow up. And you are from West 
Virginia?
    Mr. Grandon. West Virginia. Yes, ma'am.
    Ms. Graham. Okay, thank you.
    Does anyone else have a comment?
    Ms. Chastain. Sure. Yes, ma'am. I think that is an awesome 
idea. The request that I get most often are for small tractors 
for beginning farmers, and utility vehicles for those that have 
some sort of disability, which makes it hard for them to get 
around their acreage. So those are things that are--and a 
Bobcat would be awesome to beginning farmers and give them a 
boost up, because a lot of them can't afford it.
    Ms. Graham. That is exactly the thought behind the 
legislation, so thank you.
    Oh, yes, all in with this. I want to make sure I get your 
name right. Colonel Lemondes?
    Mr. Lemondes. Lemondes.
    Ms. Graham. Lemondes. You mentioned something earlier that 
you call the agencies and you hear, I will get back to you. Do 
they get back to you?
    Mr. Lemondes. Sometimes. And again, I put in my testimony, 
my experience thus far, and keep in mind, I would call myself a 
novice farmer at this point. We moved onto our farm in the end 
of 2013 and it was an absolute mess. It is in five phases. We 
had to start with reconstruction first in 2014 to rebuild the 
house, and we are in stage three of a five phase plan.
    But yes, they do get back to you sometimes, and as I said 
earlier in a different remark today, I received an e-mail this 
morning reminding me to file something, and this is from a 
professional relationship that that person was looking out for 
me. And that was favorable.
    Ms. Graham. Well thank you. I am out of time, but let me 
just say this. If a state agency or a Federal agency does not 
get back to you, that is what we are here to do as your 
Congressional Representatives. Call us and demand that we are 
responsive to the citizens of this country, because we are 
here, again, to serve the citizens and serve the veterans, not 
vice versa. So call your Congressional Representative. I am 
sorry to my friends in the room, but call them and say it is 
unacceptable and have them reach out on your behalf.
    So thank you. Thank you again for your service, and I yield 
back the time I do not have.
    The Chairman. The gentlelady's time has expired.
    Mr. Crawford, for 5 minutes.
    Mr. Crawford. Thank you, Mr. Chairman.
    As we have been talking, obviously there are some common 
themes that come up as a barrier to entry into agriculture. If 
you are a farm kid and you join the military, then maybe you 
can go back to your family operation. Maybe you can't. Maybe 
your parents were tenant farmers or maybe you just leave the 
military with a dream and you say I want to be a farmer. So the 
issues tend to be that barrier for entry with the access to 
land and capital, pretty fair to say?
    If I am asking you a question that you have already 
considered then that is probably a good thing, but I have been 
texting back and forth with our ag secretary, in Arkansas, 
during this hearing who is also a veteran himself, and I tested 
the idea of creating a veteran co-op to help facilitate the 
access to capital and land. How does that idea strike you? Is 
that viable? Sergeant Grandon, we will start with you.
    Mr. Grandon. Yes, sir, that is something we have already 
done in West Virginia and Ohio is to form, it is called the 
Minuteman's Cooperative.
    Mr. Crawford. Okay.
    Mr. Grandon. And they have set aside about 800 acres for 
training purposes. They are doing an apprenticeship program. 
There is going to be an equipment exchange, and they have the 
NRCS and the FSA involved with education. We have actually got 
that up and started to roll now.
    Mr. Crawford. Good. Any other thoughts, comments on that? 
Colonel Chastain?
    Ms. Chastain. I just would like to say that it is important 
that veteran farmers create some kind of a network that they 
can work together. Veterans, again, those that are suffering 
from PTSD or other issues sometimes can't relate to the 
community but they can relate to other veterans. And so 
creating those network of farmer veterans that can rely on each 
other is very important in a lot of ways. One is for financial 
benefits, but also for just being able to advance.
    Mr. Crawford. Excellent. Colonel Lemondes?
    Mr. Lemondes. Sir, I would agree wholeheartedly. I think 
any application that that could be executed in would be 
helpful.
    Mr. Crawford. Excellent. Colonel Fant, any comment?
    Mr. Fant. Yes, sir, a couple things. One of the strengths 
that the Farmer Veterans Coalition's efforts are in is towards 
this effort of identifying the barriers to entry, and how do we 
reduce them.
    Ms. Graham was talking or Representative Graham was talking 
about equipment. They have worked and partnered with Kubota to 
try to provide equipment to veterans.
    But I also think there is an opportunity to rethink how we 
look at land. When we think about land access and again, 
earlier I mentioned about there is a perception you have to own 
the land, but I also do think, and this probably goes back to 
my experience in South Korea where every piece of land was 
being used for something productive.
    So when you go around and you look at industrial parks or 
schools or other areas that may traditionally have been 
restricted, we may be able to then identify even edges of 
parks. We may be able to identify land that is being under-
utilized that could be utilized specifically for a veteran to 
be able to start a small farm.
    So this idea, the mindset that we are in about accessing 
land, we have to change that paradigm and start thinking about 
what land is really available. And then when we start there it 
opens up a whole lot more doors.
    Mr. Crawford. Do you envision, Sergeant Grandon, you 
mentioned your co-op model and you mentioned NRCS as one agency 
that was helpful in that. What other role could the Federal 
Government play in facilitating that? And I will be honest with 
you. I would like to minimize the Federal role and let the 
states be the primary drivers of this, but obviously, USDA is 
going to have some purview here. But what would you envision?
    Mr. Grandon. Is it what would I envision as a perfect 
model?
    Mr. Crawford. As the kind of model that you could apply. 
You are talking about 800 acres. In my geography, 800 acres is 
extremely small.
    Mr. Grandon. Right. In rural West Virginia, it is extremely 
huge.
    Mr. Crawford. Right.
    Mr. Grandon. My farm is 4 acres. I own 93, but that is all 
and I have used, just like in South Korea, I have used 
hillsides and everything like that. So that is actually huge 
for us.
    We have also partnered with the West Virginia National 
Guard and the USDA for property, state-owned property to lease 
out to the veterans. Again, that is not through the co-op or 
anything, but that is something we have done through our 
program.
    The whole idea of the cooperative was for marketing 
purposes initially, to have a veteran owned product that we 
could sell, and I think that is where the idea first came from. 
And like I say, it is still in the initial phase, but that is 
what we have up and running as of right now.
    Mr. Crawford. Excellent. My time has expired. Thank you.
    The Chairman. The gentleman's time has expired.
    Mr. Ashford, 5 minutes.
    Mr. Ashford. Thank you. I want to also commend the Chairman 
for having this hearing. This is incredibly important.
    And I don't have a question. Most of my questions have been 
asked and answered, from my perspective in Nebraska, this is a 
tremendous opportunity. There is quite a bit of work being done 
at the University of Nebraska at our ag school on water 
resources, how to most effectively and efficiently use water 
resources. A new institute has been developed there. And there 
is an opportunity there working with veterans who have had 
experience working with water resources and just water 
generally in the various places that they have been. So I just 
want to commend the Committee, the Chairman, and all of you for 
doing what you are doing.
    The point that was made, Colonel Lemondes, regarding the 
gap of time that, everybody has made the same point, the gap of 
time that occurs from leaving the service and finding 
employment. Staff Sergeant, you brought that up in your life, 
in your experience. It is hugely important, and one of the 
things we are doing in Omaha hopefully is developing a new 
medical center as part of our Veterans Administration. It is an 
interesting idea that I am asking my colleagues to support, 
which is a private-public partnership where a donor group in 
Omaha would, in effect, raise money to build the facility and 
then give the facility back to the VA. So this concept would 
enable this kind of facility to be built without going through 
the veterans hospital list.
    But the point I am making is that there we have a donor 
group that is willing to raise tens of millions of dollars to 
build a medical facility, and that same donor group if they are 
willing to do something like that, they are going to be willing 
to invest donor dollars in nonprofits to make that sort of 
bridge between the military, the service, and then farming. 
Nebraska is a great incubator for that.
    So that sort of model of the VA providing resources and 
research and the donor community weighing in, and we are very 
fortunate in Omaha and Nebraska generally to have a very robust 
donor community. So all these linkages are incredibly 
important, and the comments you have made in bringing those 
linkages to bear in agriculture, this is just very exciting. I 
appreciate this hearing because I am going to go home and 
explore some opportunities where we can engage our donor 
community in creating nonprofits to build a bridge connecting 
them to the University of Nebraska and our ag school there for 
veterans. You have answered these questions, but to think about 
this gap and how do we give our military the ability to be 
trained in some of these techniques before they get out of the 
service so they can go right in to these opportunities.
    So Mr. Chairman, thank you for the opportunity to give a 
little speech here, this is really great work. Thank you.
    The Chairman. The gentleman yields back.
    Mr. Gibson, for 5 minutes.
    Mr. Gibson. Thank you, Mr. Chairman, and I appreciate this 
hearing. I am finding this testimony very helpful and 
informative.
    I want to thank the panelists, not only for your service, I 
thank you deeply for that, but for your willingness to come 
here and share. Colonel Lemondes, good to see you again. 
Certainly, you are the pride of upstate New York. We appreciate 
how you have flourished in challenging circumstances. Sergeant 
Grandon, it is very encouraging and heartwarming to hear your 
story. Thank you for sharing it.
    The Members here on this Committee try really hard to come 
together with these programs that can be helpful, and to hear 
you explain how helpful it was to you, we all can take 
inspiration from that.
    So for Colonel Chastain and for Colonel Fant, I am 
interested to know, based on your experiences, you grew up on 
farms and you are back. Can you help lay out for us what 
changed in that period of time from the time you left home to 
join the military to the time you came back home? And across 
those changes, what do you view as positive, sort of 
facilitating and helpful, and what do you see as more 
challenging? I think that would be helpful for us to hear, jut 
your personal take from your experiences.
    Ms. Chastain. I wanted to get as far away from the family 
farm as I could when I graduated from college, so that was my 
main goal at that point. And then throughout the years, and 
again, I didn't plan on making the military career, but did. 
Somehow it started creeping back in that being back home on the 
family farm was what was in my blood and what I needed to come 
back to. And it was solidified by my tour of duty in 
Afghanistan where I was working with American farmers that were 
fellow soldiers, as well as Afghan farmers that are subsistence 
farmers and don't have a lot of the ability and the fortunes 
that we have in this country.
    So yes, things changed. The way of farming changed a lot in 
those 30 years between when I left the farm and when I came 
back. A lot of things changed. The dynamics of the family farm 
have changed. Now I am in a leadership role in my family farm, 
but not necessarily the operator, which enables me still to 
work. But I needed to be back in the country, and maybe it is 
because I grew up on a farm. I needed to be back in the 
country. I needed to be able to walk to my mailbox in my 
pajamas if I wanted to and nobody would see me.
    So those are the things that I longed for my many years of 
travel and being among lots of people all the time in my 
military career.
    Mr. Fant. When I left the farm, I didn't leave because, for 
any other reason, you are going to go to college. Okay. That is 
what I am going to do. And so as I progressed through, and our 
farm had been in the family for a couple hundred years, so it 
was there. We grew up there. It was just what it was.
    But, as I progressed through my military career and I 
started to begin to take interest in food issues and as we 
moved around and lived in different places in the world, we 
began to become interested in how food was grown and where it 
was grown and how do we prepare it and all that kind of stuff. 
And so a few years before we decided to transition out, we said 
we have this farm back here. And my wife would probably say 
that I have been talking about moving back there for years, but 
it was just something I figured I would probably do at the end 
of my career, whenever that was.
    So when that time came, I began studying and trying to 
understand what it was I needed. And as you know from your own 
service, there are a lot of skill sets that you do on the farm 
that you do in the Army, maintenance, planning, dirty. I mean, 
we are all soldiers of the soil in a way, whether you are 
farming or soldiering. So that is kind of what it seemed like a 
logical progression for me, and somebody had to go do it. That 
was the other piece of it. Somebody had to go back to the farm 
and kind of take it over and run it. My folks are living there 
now, but somebody had to do it.
    So that is kind of why I did it and how I did it, but you 
asked about a critical thing about a challenge, and it is not 
specific to agriculture, but it is important to agriculture, 
and that has to be access to markets and access to information. 
And in rural America, broadband is critical in this day and age 
to operations. So much technology in the military now are in 
the ag. We are using GPS to properly apply fertilizer and all 
these other things, and mowing where you don't need to mow. But 
the access to information and to be able to find markets 
through broadband, especially in rural areas and geographically 
challenged areas, broadband in Kansas is different than 
broadband in southwest Virginia, because mountains get a vote 
on the electronic footprint.
    If you are looking for a challenge to really help rural 
America, regardless if you are in agriculture or if you are 
just trying to make a living, it is that issue.
    Mr. Gibson. Well thank you, and Mr. Chairman, my time has 
expired.
    The Chairman. The gentleman's time has expired.
    Ms. Lujan Grisham, for 5 minutes.
    Ms. Lujan Grisham. Thank you, Mr. Chairman, and I really 
appreciate the opportunity to participate as a Member of this 
Committee in this hearing, and having, again, an opportunity to 
say thank you for your service to this country and for your 
interest in the work of this Committee, and our efforts to make 
sure that we have every opportunity available for everybody who 
wants it to invest in ag and be farmers and ranchers and 
producers. And I can tell you that it means a lot to us to get 
testimony from you about what we can do better.
    And in fact, representing New Mexico, we have significant 
issues with under-served farmers and ranchers, minority 
populations, veteran populations, and we have been working 
diligently with USDA to deal with that a little more 
productively. You are probably aware that in the farm bill, the 
2014 Farm Bill, there is a section dedicated to under-served 
ranchers and farmers, the Section 2501 Program. And I offered 
an amendment; unfortunately, it failed because we have reduced 
the amount of funding for the very things that you are working 
to do.
    And what I do love about this very bipartisan Committee is 
this is another chance for us. I appreciate the Chairman so we 
really think about what our investments really ought to look 
like so that we are creating the avenues that you are proposing 
to us here today. And I can tell you that they make a real 
difference. Certainly in my district and my community and in my 
state, and in fact, we have a program in the Albuquerque area. 
It is a Veterans Farmers Project, and I hear from them all the 
time. They work with a local grocery cooperative that has a 
community farm. So veterans farm at the community farm, then 
they sell at a veterans farmers' market and they have a link to 
the cooperative grocery stores in the entire community. And one 
of the veterans came to me, I am interested in feedback, 
Colonel Lemondes, if you can let me know what you think. He was 
really demoralized about the project he loves. He is completely 
engaged in my community, but he says we don't apply for any 
Federal grants. We steer clearly away from USDA, because he 
can't manage the complexities. He said, ``I can manage my 
troops. I can follow orders and directions that are complex, 
that are critical issue moments in my career and in my life. 
But I cannot successfully deal with the burden, and neither can 
any of the business folks involved in this project deal with 
USDA on a very simple investment in a project that we know 
works and makes a difference, not only in my life, but in the 
lives of veterans in this entire community.'' They apply for 
state grants, which they get, but it would be great if we were 
leveraging these funds because instead of, and I am going to 
make this number up, instead of 20 veterans that we are 
helping, it could be 200 veterans.
    I would love for you to respond. We have been really 
struggling with getting our regulatory and our outreach and 
engagement efforts right through USDA.
    Mr. Lemondes. Ma'am, thank you. I believe you said you are 
from New Mexico?
    Ms. Lujan Grisham. I am. You can tell because I am so tall.
    Mr. Lemondes. Ironically, I used an example once when 
talking about different programs, and I said the execution of a 
Federal program with all of its parameters will not benefit a 
farm, nor should it be applied the same way to a farm in New 
Mexico as it would be in New York.
    There are a ton of variables involved, and so oftentimes I 
have found that it is very difficult dealing with these. I put 
in my testimony, I applied for a ton of grants in 2014, and as 
I said in my testimony, I ultimately realized had I just 
allocated that time to simple labor on our farm, I would have 
been better off. It was a waste of time. And you are talking to 
someone with three master's degrees. My wife has two. So we can 
handle the complexity. We can read questions and respond 
accordingly, but that process of obtaining grants, the 
execution of these programs is an enigma.
    Ms. Lujan Grisham. Do you think that they could be so 
prescriptive and so complicated so that people don't access 
those grants or funds so that we create exactly the opposite of 
what we are intending to do? Is that a possibility in your 
mind?
    Mr. Lemondes. Perhaps, but I would think not intentionally. 
I think because it is public money, in my career as a program 
manager, the latter half of my military career I expended on 
behalf of our country nearly $7 billion of taxpayer money, so I 
understand that. I understand the rigor that has to be applied 
to the use of public funds.
    But nonetheless, sometimes, again, at the execution level, 
which is our counties, at the execution level, if that can't be 
interpreted in a way that the person representing the 
government is not afraid of something that could come back to 
them. Oh my god, you authorized an extra fencepost on that farm 
20 years ago. By god, we are going to come and get it from you. 
Then there could be some serious training issues there but 
overall, these programs are well intended. They are well 
purposed, but they sure are not easy, at least in my 
experience.
    Ms. Lujan Grisham. Well, I know we have the Chairman's 
support to try to make that endeavor.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. The gentlelady's time has expired.
    Mr. Newhouse, 5 minutes.
    Mr. Newhouse. Thank you, Mr. Chairman, and thank you for 
holding this hearing. I want to express my appreciation to all 
of you for participating in this, and thank you all for your 
service to our country as well.
    I am a farmer myself, and so I am deeply interested in this 
issue on a personal level. The bottom line is, in agriculture, 
we need people. That is the one resource that we are running 
short on, and so it seems like a natural marriage, so to speak, 
if there are veterans that are interested in getting engaged in 
agriculture, whether it is production agriculture or any other 
aspect, there are a lot of other opportunities. I think this is 
a tremendous thing that we could be spending our time with.
    You all have done a great job of talking about, and many of 
the questions are directed towards things like the government 
programs, the different things that we are working on, and so I 
appreciated that, but kind of on the line of Mr. Crawford's 
questions that maybe other things outside of government that 
could be helpful, and there are a couple of you that are 
involved in those kind of projects.
    I was just curious if there are any opportunities that are 
already happening around the country that you may know of, or 
if you have ideas on how private farms or agribusinesses could 
engage in this and encourage and work with veterans if they are 
interested in agriculture, whether it be--I look at the list of 
characteristics like some of you were, personal discipline, 
planning, communications, integrity, mission dedication, 
decision making, all those things. You know what that spells to 
me? An ideal employee, for one thing, a manager kind of a 
position perhaps. So there are a lot of ways to get engaged in 
the agricultural industry that can turn into, perhaps, farming 
on your own at some point in time.
    Do you have any suggestions or do you know of anything that 
we could replicate around the country of engaging farms and 
agribusinesses in this, not necessarily a government program, 
but just a partnership that perhaps in both of your projects 
and your efforts? Do you know of something or maybe any of you 
that have heard of any opportunities that we could replicate, 
or is that an opportunity that maybe we should explore?
    Ms. Chastain. Well, we have talked about it a little bit 
before, but current farmers out there can do a lot of things if 
they want to help veterans, to be mentors, to open up their 
farm for maybe an incubator farm for a beginning farmer. There 
are a lot of not-for-profit organizations out there that can 
partner with a farmer or a business that wants to sponsor a 
veteran farmer. There are a lot of ways to help in that area, 
but mentorship and internships are very important for veterans.
    If I could have a list of agribusinesses that wanted to 
hire a veteran for a short-term for training, that would a 
great thing that I could give to my beginning veteran farmers 
out there to get them started.
    Mr. Newhouse. That would be great.
    Mr. Fant. Sir, I guess two things come to mind. At the 
local level, where a lot of work could be done and a lot of 
things achieved, is the partnering of businesses, our local 
government, and our school systems to improve our vocational 
education system.
    When I moved back, our vocational school system is not 
really producing, everybody around where I live is looking for 
a good plumber or somebody that can run a bulldozer, that kind 
of stuff. And there is real opportunity for the local 
businesses to partner with the school systems and the 
vocational centers, career and technical education centers to 
offer opportunities, work studies, whatever you want to call 
it, but to help develop skills while these young people are in 
high school, because a lot of folks don't want to go to 
college. So use this opportunity to educate them all in what it 
takes to be an auto mechanic, or what it takes to be a welder, 
and you may foster an interest in this particular field that 
this person didn't realize they had. But the other thing you 
will show them, well maybe that is not what I want to do, which 
is also very important.
    At the next level though, the state and national level is 
where Farmer Veteran Coalition has done a lot of good work. And 
I frankly stopped struggling, and I am in the process like 
Colonel Lemondes here is of trying to get a chapter in the 
Commonwealth of Virginia started for this organization. But I 
struggle with the value, and after studying it for a while, 
because they are a coalition of those businesses at the 
national level. And at the state level with the Virginia 
Beginning Farmer Rancher Coalition that its purpose is to train 
beginning farmers, they built a coalition of the willing, Farm 
Bureau, Farm Credit, AgrAbility. So those coalitions are 
starting to exist, and the effort is really to continue to 
emphasize the importance of them, and then to expand them 
throughout the nation. Because right now, FVC is national at 
the national level, but it is not national at the state level. 
And that is going to be the connector of that local farmer 
veteran to this coalition that you described, in my opinion.
    Mr. Newhouse. Thank you very much, and again, thanks for 
your service and being here today. Thank you, Mr. Chairman.
    The Chairman. The gentleman's time has expired.
    Mr. Kelly, 5 minutes.
    Mr. Kelly. I want to thank all four of you for your service 
to this great nation, and I mean that from the bottom of my 
heart. I also want to thank you for being farmers.
    Colonel Fant, and this is more of a statement. People don't 
understand what Iraq, I think a lot of people think it is all 
about the oil in Iraq, and you and I have been there, and we 
have seen Mesopotamia. We have seen how beautiful and how rich 
that farmland is, and we understand that the value of Iraq and 
Mesopotamia, the reason people have fought over it for 
centuries has nothing to do with oil. It has to do with water 
and fertile soil. And sometimes people get confused. That is 
why that area and that region of the world, Mesopotamia, is so 
important to this nation or to strategic interests across the 
world.
    One of the things that bothers me about where I see our 
nation going is the urbanization of America. It is almost--
people think it is a bad thing to be rural. People think it is 
a bad thing to have a skilled trade where you can make a lot of 
money instead of thinking that everybody should get a free 
college education. But they think it is a bad thing to have a 
trade.
    I am in a wonderful area of Mississippi which is very 
industrial and still has a lot of farming. I am also on the 
Small Business Committee, and so I see that a lot of times 
people can go get a 2 year trade or they can farm and they can 
do things that make a great living and that actually create or 
grow things and are productive to our nation and to our economy 
as opposed to getting a 4 year degree in liberal arts and 
praying that you can get a job flipping burgers for $20,000 a 
year, which means nothing other than a piece of paper. We have 
to get back to that American Dream that is not about what level 
of education you have. It is more focused on what you are 
contributing to America and what kind of life and living you 
are making for your family.
    Do you have any ideas where we can, as a small business, 
which also reaches out to veterans with our beat box and 
agriculture. Do you have any ideas where we can coordinate 
together to use those things to create the mechanics and to 
create the people who are maintaining our tractors or that are 
running the small business that creates the seeds, all those 
things. Any ideas how we can tie small business and agriculture 
together?
    Mr. Fant. The first thing, though, and this is why this 
forum is important among all the other ones is that you have to 
change the perception. A lot of folks think about farming is 
something you do when you get home from work. It is not your 
primary way of making a living. We have to demonstrate that you 
can do it, and through our local schools, and back in my 
county, our county is rural. The population is going down. 
Young people are leaving because the jobs aren't there. There 
used to be manufacturing. There used to be furniture. But the 
strength that has always been in that county is agriculture. 
And so the education that takes place, you don't have to be a 
beef cattle farmer just because that is what everybody else 
around here does. You can do a lot and make some pretty good 
money on just a quarter acre or even on a piece of land this 
size.
    So the working together with the Economic Development 
Authority, the local government, and the school system to make 
sure, first, that we have identified that agriculture is a 
critical point to economic development, and then second, we 
tailor our school systems and our vocational training systems 
so they are producing skills that are marketable to the local 
producers. Because ultimately if we don't keep our young people 
in the area where they grew up, we are not going to have a 
place for anybody else to grow up.
    Mr. Kelly. And one other thing. Historically, the first 
thing that really made America grow or one the first things was 
40 acres and a mule, land and implements, okay, which that is a 
little bit different today, and then the next generational 
change that kind of happened that changed us a little bit was 
World War II. We sent all these farmers and they said once you 
send a farmer to Peru and he has seen the world, he will never 
go back to the farm. Well unfortunately, that was true. But we 
came out with the GI Bill for all these soldiers and we gave 
them the GI Bill, and somehow the American Dream transitioned 
from having a farm and 40 acres and a mule to having a college 
degree. And so that was kind of the focal point. It wasn't 
manufacturing. It was education as opposed to a trade.
    We need to get back to where a trade is what is important, 
okay, making a great living and being very proud of what we are 
creating and what we are growing. Any idea as to how we can use 
USDA to get back to where having a trade and making a living is 
more important than having a piece of paper that earns you no 
trade?
    Mr. Lemondes. Sir, I would say simply raising the profile 
of agriculture in all peripheral industries, and there are many 
different ways to do that, myriad of ways. But, raising the 
profile, educating the public, inculcating school programs with 
where food comes from and how it is made. It is as simple as 
that.
    Mr. Kelly. Mr. Chairman, my time has expired.
    The Chairman. The gentleman's time has expired.
    Mr. Davis, 5 minutes.
    Mr. Davis. Thank you, Mr. Chairman, and thank you to each 
and every one of you, first for your service to our great 
country; and second, for being here today to talk to us about 
the importance of engaging our veterans in a field that, as you 
can tell from all the questioning you have had before, that we 
feel strongly exists to not only help grow jobs and grow our 
economy, but also make sure we have the safest and most 
abundant food supply in the world that allows us to feed the 
world. And we would like to work with you after this to 
encourage more veterans to get involved in agriculture.
    I come from the State of Illinois. I am friends with a 
gentleman named R.D. Elder. R.D. is disabled. He has used the 
AgrAbility program himself. He works with the program in 
Illinois. Colonel Chastain, I would like to actually start with 
a question to you.
    You mentioned you had not even heard of the AgrAbility 
program 2 years ago. Are you concerned that others who could 
benefit from the program are also unaware of its existence and 
benefits, and how are you working through your current role to 
get the word out?
    Ms. Chastain. That is a good question. The reason this job 
came about is because veterans like me did not know about the 
program. My job is outreach and finding those veterans out 
there. I am not a rehabilitation specialist that can go out and 
assess the technological needs of a farmer, because I don't 
have that experience. My job is to reach out to veterans around 
the country and make sure that they know about our program and 
the benefits it provides.
    Mr. Davis. Right, and you don't think enough veterans 
actually know it is there?
    Ms. Chastain. Correct. I was one of them, and I would guess 
that probably the three other gentlemen up here with me did not 
know a whole lot about the AgrAbility program either.
    We do a lot of things. AgrAbility has served veterans for 
probably 30 years. The pre-program before the AgrAbility 
program, and so we have served veterans, but they found out 
about it through myriad different ways. Right now what we do, 
we are having special programs for veterans and working with 
the Farmer Veteran Coalition and other organizations that serve 
veterans. So our state programs around the country are doing 
all kinds of things to reach out to veterans: working with the 
State Farmer Veteran Coalitions, working with their state 
agriculture department to reach out to veterans also. So that 
is kind of what we are doing is trying to locate veterans 
around our states that would like to be farmers or are already 
farmers and need support.
    Mr. Davis. Oh, and I talk to my constituents who are 
engaged in the AgrAbility program in Illinois. The problem they 
bring up is the lack of funding to be able to access. You 
mention that we want to expand the program. We want to make 
sure more people are eligible, but it seems like states like 
Illinois aren't able to do that. Are there other states that do 
it better? Do the states have to provide a match to the program 
that the Federal Government is helping to provide?
    Ms. Chastain. No. Some of our state programs do find other 
donors and other organizations that they work with to increase 
their funding, but funding is an issue. That is why we only 
have 20 programs in 20 states, not the whole country, because 
of funding. There is a fine line between reaching out and 
finding all of the veterans that we want to support, and not 
being able to support them because we don't have enough funding 
to do so.
    Mr. Davis. So the current states that utilize the 
AgrAbility program, how was the funding decision made to go to 
those states versus states like Illinois who have been lacking?
    Ms. Chastain. It is a competitive grant. Every 4 years they 
have to reapply, and it is competitive for whoever wants to 
apply, and it is within a land-grant university, partnered with 
a land-grant university. But it is a competitive grant, so 
AgrAbility in Illinois just received their grant back. They 
were without the grant for several years.
    Mr. Davis. Right.
    Ms. Chastain. So programs can come and go in different 
states, depending on the strength of their grant proposals.
    Mr. Davis. So they worked with our land-grant university, 
University of Illinois, the University of Illinois extension to 
be able to access those funds again that they hadn't had in the 
past. So hopefully the next time you come here to speak with us 
in front of the House Agriculture Committee, I have some other 
new stories to tell because of the success of this new award in 
the State of Illinois.
    So with that, I want to thank you all again. My time has 
expired.
    The Chairman. The gentleman yields back.
    Mr. LaMalfa, 5 minutes.
    Mr. LaMalfa. Thank you, Mr. Chairman. Thank you to this 
panel. You are very esteemed panelists for us here and we do 
greatly appreciate the many, many years of service to all of us 
here and the ability to have this conversation to see how 
better do we aid with your efforts and others for helping other 
veterans who have come home and are looking for these 
opportunities in agriculture.
    A year ago as part of the Homegrown by Heroes event, I met 
with a constituent from my district named Chris Gallian who 
talked about his experience returning from two tours in Iraq. 
He credited his smooth transition to finding immediate work in 
the transition of getting home. He is a manager on a farm now, 
and tries to help out by hiring more veterans to help out to 
get them integrated into society once again. As great as his 
intent is, he is still running into barriers. Local VSOs are 
hesitant to give him contact info for veterans in the area. 
While USDA has initiatives to help more veterans and find ag 
careers, there is no formal program.
    So this really struck me as a need because there is a 
desire out there by people to fill the need. The benefits are 
available to veteran farmers under the farm bill, but I am 
concerned we are leaving many of them behind, especially as 
most of this affects rural veterans who may have the greatest 
need.
    So many of the skills gained as a soldier are easily 
transferred to farmers and a farming operation, which again 
helps with their transition but can also, as our farming 
community ages, it is what, somewhere in the early 60s now, 
something like a new generation is going to be needed if we are 
going to continue in this country. So it is a goal shared by 
many in this room here today, including our panel. Thank you 
again for being here. What I am looking for is that the 
specialized training they receive in the military on, of course 
there is running equipment, doing repairs, but there is also 
some pretty high tech, technically advanced training they have 
here, what do you see, and all four on the panel, please take a 
whack at this in the 2\1/2\ minutes we are going to have left, 
to use these more technical opportunities to apply that to 
agriculture there. Do you see windows for that, to make that 
even more desirable for farmers, that they have this technical 
training, maybe not necessarily directly in agriculture, but 
probably fairly easily adaptable with a little bit of training? 
Is that important? Do you see that as a very usable thing, and 
that is a good transition? Please?
    Mr. Fant. Yes, sir, two real quick things. First, GPS has 
really transformed how farmers do business, both from the data 
that they can use in application of fertilizer or whatever, but 
the data that they get off of it from an accuracy standpoint so 
they are not wasting resources and going places they don't need 
to go. And the second thing is going to be the next thing that 
is going to transform agriculture is drones. Your ability, even 
if it is simply flying them out there to check your cattle 
instead of having to drive out there or other applications that 
I can't imagine right now. But, that is the next thing that is 
being used in the military right now that will make its way, 
and already is in a lot of places, is drones.
    Mr. Lemondes. Sir, thank you. Before you even get to the 
technology, the things that popped into my mind as you were 
asking that question were simple physical discipline, the 
things that you need to run a business that, in my case, I had 
done the latter half of my career, program management, directly 
transferable to anything. Simple problem solving, having worked 
through very, very difficult problems, decision making 
processes, all of which we all have ingrained in our heads from 
a very good culture that instills that, and it is, again, 
directly transferable to anything.
    Ms. Chastain. I don't think it is required that a farmer 
have a lot of technological experience. It is helpful. We 
talked about drones. I just met a pilot, still active duty 
pilot that is using drones on his farm now and it has, 
especially since I work with a lot of disabilities, it has a 
great application to a farmer that is disabled is the drones to 
check your cattle, to do things that you can't possibly 
physically do at some times. So there are some great 
applications.
    Mr. Grandon. On my farm, it is very simple. We don't use 
technology in any way, other than computers for tracking sales 
and invoices and QuickBooks.
    Mr. LaMalfa. All right, thank you. I find that on our farm, 
we have auto steer on the tractors and GPS for tracking yield 
and integrated with the yield coming in the combine, and of 
course, land leveling using GPS. And when I find out some of 
the guys have no idea how to run it and they are just out there 
running it the old way and wondering what did I spend that 
money for to have this precision for efficiency, and also for 
the fatigue of the drivers and such because they are having to 
concentrate less.
    Thank you. I appreciate it.
    The Chairman. The gentleman's time has expired.
    At the start of the questioning, I didn't let Colonel 
Chastain or Staff Sergeant Grandon talk to us about your 
experiences overseas and what you saw there from an 
agricultural standpoint, and what you think Americans take for 
granted. Colonel Chastain, any thoughts that you prepared for 
that question?
    Ms. Chastain. I have some experience with Afghan farmers, 
and of course, food insecurity in Afghanistan. So I saw first 
hand what subsistence farming looks like, and I don't know that 
there are too many farmers in Afghanistan that aren't 
subsistence farmers. A lot of their food insecurity comes from 
the lack of government ever touching those individuals. Part of 
our job was to connect the farmer to their government. That was 
part of our counter-insurgency plan. So a lot of the farmers 
had never received any support from their government in their 
entire lives, so knowing that their government was there to 
help them, to support them in a few different ways, and it was 
very minor, that is what we tried to encourage.
    The food insecurity issue is compounded by the fact that 
there was no government support or government backing to any 
farmer in that country. Seeing that firsthand made me look at 
our own country and the strengths that we have, both in 
structure and in land, and of course, the water issues are 
significant, in Afghanistan, and if there is not water, there 
will be no agriculture.
    So there are a lot of issues besides being an extremely 
poor country, but farmers in subsistence agriculture, that 
country is going to struggle ever getting out of that system. I 
think that it makes you appreciate what we have here and that 
we have the government that can touch that farmer and can help 
that farmer.
    The Chairman. Staff Sergeant?
    Mr. Grandon. Sir, like I said earlier, my experience with 
farming just happened 3 years ago, and my last tour was 12 
years ago, so I really don't have an answer for you.
    The Chairman. I appreciate that.
    Well, I want to thank our witnesses for coming today and 
sharing with us. Staff Sergeant, I particularly appreciate you 
sharing your personal walk and journey with us, and how you 
have been successful in dealing with this, the way agriculture 
has helped that.
    We are all a product of experiences. I spent a Sunday 
afternoon in Jalal-Abad, one Sunday afternoon with the folks of 
the 101st Airborne, and they were sitting around a table trying 
to kind of prosper that part of Afghanistan. They had 
agriculture, but they had no processing. They didn't have 
electricity that was consistent, no coal storage. They thought 
they had markets in Kuwait and other places they could sell 
what was being grown in that area, but these were infantrymen, 
and quite frankly, about helping a community like that to 
prosper. They were engaged in the problem. They were trying to 
figure out what they could do, how they can make that happen. 
It was all about agriculture. The ironic thing was that the day 
before, they had been in an 8 hour gun fight throughout that 
whole day. Took those hats off on Sunday afternoon and were 
sitting around a table trying to figure it out. There was a 
group from Missouri, a group of National Guardsmen who were 
coming to that part of Afghanistan in about a month and a half, 
and they were all production farmers who just also happened to 
be in the National Guard. They were way excited about getting 
those folks in country to be able to see if they could actually 
get done what they wanted to get done. So our military men and 
women are just stunningly impressive across this globe, and we 
have four good examples today.
    A couple of weeks ago I led a CODEL to Hagatna to see a 4-H 
program that is in existence there. We have an AgriCorps group 
that is U.S. recent graduates from agriculture degrees who 
volunteered to spend a year trying to promote 4-H programs in 
these schools, and in spite of how poor the agriculture is for 
that country, once their kids get educated, they don't want to 
come back and farm either. Farming is not cool, and so by using 
the 4-H model to help these kids understand you can actually 
make money at it and do those kind of things. So this fight we 
have to reset America's mindset as to what is successful and 
not successful, vis-a-vis 4 year college degrees, trades, and 
other things is not unique just to the United States.
    One of our challenges for the 2018 Farm Bill is to how to 
connect urban America with why it is important to have a safety 
net. Colonel Chastain, you just mentioned that you have these 
subsistence farmers out there who are not doing as well as they 
could have if they were getting some resource help from their 
government. We have a great plan in place with the existing 
farm bill that has a variety of programs, from conservation to 
the programs you talked about this morning, but also a safety 
net for production agriculture. We have urbanized our country. 
Most folks don't understand where their food comes from, think 
it just shows up at the market by magic, and they don't 
appreciate it. What they do benefit from, though, is the great 
work of our men and women in production agriculture. They just 
don't know why they have the cheapest or most affordable food 
supply in the developed world. And so how do we get that 
message out? How does production agriculture, how do farmers 
and ranchers tell your story? You have great stories to tell, 
and the way we feed America and feed the rest of the world, so 
how do we help urban America understand that it is not directly 
linked into the SNAP program as we have done in the past.
    So you are all deputized to try to continue to tell your 
story, try to convince Americans so they know where their food 
comes from, and how important it is that we keep the American 
farmer in the fight through good times and bad times. And that 
is the purpose of the farm bill. I guess Mr. Davis and I are 
the only two remaining Members, but we will be engaged in that.
    I appreciate all of you, again, for coming. Thank you for 
your service to our country. I know you are proud of that 
segment of your careers, and congratulations on that on moving 
forward. But again, thank you for being here.
    Under the rules of the Committee, the record of today's 
hearing will remain open for 10 calendar days to receive 
additional material, supplemental written responses from the 
witnesses to any questions posed by Members. This hearing of 
the Committee on Agriculture is adjourned. Thank you all.
    [Whereupon, at 11:57 a.m., the Committee was adjourned.]

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
